<html>
<title> - [H.A.S.C. No. 114-87]UNDERSTANDING AND DETERRING RUSSIA: U.S. POLICIES AND STRATEGIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                       

                         [H.A.S.C. No. 114-87]
 
    UNDERSTANDING AND DETERRING RUSSIA: U.S. POLICIES AND STRATEGIES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 10, 2016
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                __________
                                
                   U.S. GOVERNMENT PUBLISHING OFFICE
98-915                      WASHINGTON : 2017                   

________________________________________________________________________________________                                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ccabbca38cafb9bfb8a4a9a0bce2afa3a1e2">[email&#160;protected]</a>  
                     
                    
                    
                    
                    
                    COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                Katie Sendak, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Committee 
  on Armed Services..............................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Farkas, Dr. Evelyn N., Former Deputy Assistant Secretary of 
  Defense for Russia/Ukraine/Eurasia.............................     7
Hill, Dr. Fiona, Director, Center on the United States and 
  Europe, The Brookings Institution..............................     2
Stavridis, ADM James G., USN (Ret.), Dean, The Fletcher School, 
  Tufts University...............................................     8

                                APPENDIX

Prepared Statements:

    Farkas, Dr. Evelyn N.........................................    69
    Hill, Dr. Fiona..............................................    49
    Stavridis, ADM James G.......................................    78

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    93
    Mr. Garamendi................................................    93
    
    
    UNDERSTANDING AND DETERRING RUSSIA: U.S. POLICIES AND STRATEGIES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 10, 2016.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    Today the committee meets to hear testimony on 
understanding and deterring Russia. Events just over the past 
year, as Russia has consolidated its gains in Ukraine, has 
intervened in Syria, has continued to take unprecedented 
provocative actions against NATO's [North Atlantic Treaty 
Organization's] ships and planes, all point to the importance 
of this topic and of making sure that we have the capability 
needed to protect the country, our allies, and our interests.
    That is part of the reason that the committee will again 
have hearings to explore the security environment we face, 
including threats and the current state of our military, before 
we hear from the Secretary [of Defense] about whether the 
administration's budget request answers those challenges.
    But I view today not only about Russia. In many ways it 
does present unique challenges, as it has the only nuclear 
arsenal, which it continues to modernize, that is comparable to 
ours; but other countries are also going to school on the 
tactics Putin is using in Ukraine, Syria, and elsewhere. I 
think we can expect to see more of these again and again in 
other places by other actors.
    So we need to understand the challenges presented by the 
only nation that continues to pose an existential threat to the 
United States, and we need to prepare for the wide spectrum of 
national security challenges posed by Russia and by others.
    Today we are grateful to have three highly qualified 
witnesses to help explore these matters. But before I introduce 
them I will yield to Mrs. Davis, of California, who is filling 
in for Mr. Smith.

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Mrs. Davis. Thank you, Mr. Chairman. And I am happy to be 
here for Mr. Smith, and we certainly welcome him back just as 
soon as possible.
    I want to thank our witnesses for appearing this morning. 
Your expertise is a valuable resource to us on the important 
topic of Russia's strategic motivations, and I look forward to 
your testimony.
    Russian nationalism, as we know, has fueled a foreign 
policy marked by territorial aggression and expeditionary 
military activities. They have used enhanced capabilities and 
hybrid warfare techniques that have been instrumental in these 
endeavors.
    These developments are further compounded by Russia's 
noncompliance with the Intermediate [Range] Nuclear Forces 
Treaty and its energetic policy of discrediting the United 
States, NATO, and the European Union.
    So I am very interested, as is the chairman and I know all 
the members here on the committee, in your thoughts on what may 
be motivating Russia to be so adversarial and how the United 
States and its many allies can most effectively respond to the 
difficult security challenges Russia presents.
    And particularly, how might the $3.42 billion which is 
included in the President's request for the European 
Reassurance Initiative--how might--which actually almost nearly 
quadruples the prior budget request--how might that be employed 
to counter Russian aggression?
    Clearly the United States must take a lead role in 
deterring Russia. I agree with Secretary Carter, who recently 
said while we do not desire conflict of any kind with Russia, 
we also cannot blind ourselves to the actions they appear to 
choose to pursue. We must remain objective and clear-eyed about 
Russian intent and we must be ready to contend with Russia from 
a position of strength and in concert with our allies and 
partners in the international community should it become 
necessary.
    Thank you, and I yield back.
    The Chairman. As I say, we are very grateful to have three 
highly qualified witnesses to help explore these issues.
    I want to welcome Admiral Jim Stavridis, currently the dean 
at the Fletcher School at Tufts University, but just prior, our 
commander of NATO and of the European Command; Dr. Evelyn 
Farkas, former Deputy Assistant Secretary of Defense for 
Russia, Ukraine, and Eurasia--also some experience, I 
understand, over on the Senate Armed Services Committee, and we 
will try not to hold that too much against you; and Dr. Fiona 
Hill, director of Center on United States and Europe at the 
Brookings Institute, and also the author of, ``Mr. Putin: 
Operative in the Kremlin,'' which a lot of people talk about.
    Again, thank you all for being here. Without objection, 
your full written statement will be made part of the record.
    Dr. Hill, we will start with you.

  STATEMENT OF DR. FIONA HILL, DIRECTOR, CENTER ON THE UNITED 
          STATES AND EUROPE, THE BROOKINGS INSTITUTION

    Dr. Hill. Thank you so much, Mr. Chairman and Ms. Smith. It 
is a great honor to appear here in front of the committee, and 
I am very privileged to be here with such distinguished 
colleagues.
    I will just touch on a few highlights from my written 
statement, and also offer some supplemental information to that 
written text.
    Mr. Chairman, as you have outlined and, Ms. Smith, as you 
have also underscored, it is extremely important first of all 
for us to understand the nature of Russian decisionmaking.
    Russia is not the Soviet Union of the Cold War. We no 
longer have a politburo or a communist party or central 
planning. Russia is also not the weak military power of the 
1990s and 2000.
    Power in Russia today is very informal and it is rooted in 
networks around President Vladimir Putin. There are no 
significant checks and balances on Putin's presidential power, 
and so Putin himself is one aspect of the Russian challenge.
    However, waiting Putin out is not going to be a long-term 
strategy for us because even if Putin were to disappear 
tomorrow, the likelihood is that he would be replaced by 
someone from within his inner circle. The inner circle of power 
around Putin is a very tight group of the same age range, and 
people whose professional and personal relationships date back 
decades. Everyone around Putin shares the same convictions, so 
he is not an anomaly.
    I do want to touch upon for a few moments, however, about 
Putin's particular style of leadership.
    Thank you, Mr. Chairman, for mentioning my book. It is 
always a great delight when somebody does something like that.
    But the point of writing this book was to point out and to 
underscore that Putin is a professional secret service 
operative. He is very unusual among world leaders at present.
    He has been trained, as he puts it, to work with people and 
work with information. And this means that as president he 
personalizes all of his interactions, both in Russia 
domestically and in terms of foreign policy, just as he would 
have done as a KGB agent, when he targeted, recruited, and 
dealt with other agents and intelligence targets.
    Putin has also been trained to conceal his true identity 
and intentions at all times. This is what makes him 
particularly difficult to deal with.
    As the Russian head of state, he has a very great tactical 
advantage. He always keeps his options open so he can adapt to 
changing circumstances and he can continue to pursue his goals. 
And he knows that if no one else knows what he wants or how he 
is going to react, he can stay one step ahead of all of his 
political opponents, including the United States and NATO.
    In terms of his political convictions, however, Putin is a 
very traditional, conservative Russian politician. And there is 
a general consensus in Russia right now, deeply rooted in the 
political leap since the collapse of the Soviet Union, that the 
current world order, including the European security order, 
disadvantages Russia.
    Russians see their state as one of just a tiny number of 
world civilizational powers, like China and the United States, 
and they believe that this means that Russia should have 
special privileges internationally, especially in Europe. So 
this is just to underscore that any successor to Putin, no 
matter who this is, would be just as staunch a defender of what 
they see as Russian interests as Vladimir Putin is.
    I also now want to turn to the nature of the current 
presidency under Vladimir Putin. Since the wars in both Ukraine 
and Syria, Putin has transformed his presidency into what we 
might call a wartime presidency. There has been a high command, 
a centralized military, and political command set up inside of 
Moscow, and all critical security and political issues are fed 
into a small group of people around Putin there who are the 
security team, what we might call the hard men of Russian 
politics.
    To be honest, we don't really know what happens within that 
group, how deliberations take place, how information is passed 
to Putin, and really who decides on what course of action. But 
what we do know is that most of the people in this group share 
the same operative perspective as Putin does. They come from 
very similar backgrounds and, as I mentioned, they have the 
same convictions.
    None of these hard men of Russian politics, for the purpose 
of this hearing, we should bear in mind, are actually military 
men. Even the defense minister, Sergey Shoygu, who used to be 
the minister of emergencies, doesn't come from the military. 
The only person in this inner circle who does come from the 
Russian military is Gennady Gerasimov, the chief of the general 
staff, but he is a newcomer to the inner circle of Putin's 
power.
    Before today's wars, the turning point in our relationships 
with Russia was the August 2008 war with Georgia. This was also 
a turning point for Putin and his security team. It was a 
decisive moment for Russia in understanding their relationship 
with the West.
    Moscow closely observed the reactions and political 
responses of the United States and NATO and European powers to 
the war, and they took the lack of U.S. and NATO military 
support for Georgia and all of the disagreements about 
appropriate countermeasures as a sign that they could exploit 
fissures in the future. They also analyzed the performance of 
their own military to decide on the course of Russian military 
reform.
    The key lesson of the war in Georgia in 2008 for Russia was 
that no other European state was willing to engage in a similar 
military adventure and to take Russia on. Since the Georgia 
war, the Russian military has become a direct instrument of 
policy for Putin and his inner circle. They seek to figure out 
how to deploy it against opponents in foreign policy for 
tactical effect. This gives Russia a great advantage, and it 
also makes Moscow think that it can take a lot of risks.
    So just to underscore again, Putin and his inner circles 
think of the Russian military as an operational tool. They 
experiment with the direct or threat of direct application of 
military force, including the strategic and tactical nuclear 
forces, to see what advantage they can gain.
    However, I just want to point out before handing over to my 
colleagues that the Russian military has several shortcomings 
as an operational tool. Russia's military modernization over 
the last decade has been beset by planning difficulties. 
Essentially, the reform to the armed services began in 2008, 
but it wasn't until 2011 when Russia began its rearmament 
program and the revitalization of its defense sector.
    So when the operations were launched in Crimea and then in 
Ukraine in 2014, the Russian military was not quite ready for 
prime time. This is one of the several reasons why the war in 
the Donbass was launched as a covert operation. And it has also 
been the case that the war in Ukraine has been seen by the 
Russian military as more of a proving ground, as an exercise 
base for the future.
    And since the outbreak of the crisis in Ukraine, we have 
seen the Russian military engaged in a series of large-scale 
and snap exercises. Indeed, there are exercises going on as we 
meet today. February is, in fact, the traditional exercise 
season for Russia because the annual draft comes up next month 
in March, which means that they will have reduced capacity as 
the conscript force turns over.
    So Putin's challenge currently is to figure out how to 
maintain the military momentum that Russia gained in Georgia in 
2008, and to keep on figuring out how to take the West, the 
United States, and NATO by surprise, as they have done in 
Ukraine and Syria.
    One of the questions that we have to address today in the 
hearing is whether Russia may be reaching the limits of its 
ability to apply the military as a direct operational tool in 
their future conflicts.
    In Ukraine we see an effort to dampen down the conflict. 
There is discussion right now about the future of negotiations 
with the Minsk agreement.
    Part of this is because the Russian military has found 
itself squeezed as a result of international sanctions and the 
economic downturn, and also by the conduct of the campaign 
itself. The military budget has been squeezed by the reduced 
prices from energy and the revenues in the budget, and also 
because the state now has lower capacity for replacing the 
armaments and material that have been expended in the war in 
Ukraine.
    The Western sanctions hit Russia in 2014 just as the 
rearmament program was trying to reach its stride. Russia has 
been denied access to critical foreign technology as well as 
further revenues.
    And the intervention in Syria may be more costly than 
Russia basically admits at the moment, because the Syrian 
government is also not paying for the weaponry that it is 
receiving from the Russian government. So it is not just the 
cost of Russia's own military expenditures in the war in Syria, 
but also what it is also expending on behalf of the Syrian 
government.
    So Russia's dilemma is now one of prioritization--where to 
allocate its budget and where and how to deploy its relatively 
limited trained manpower. The Russian military is still 
absorbing the effect of economic decline and the resources that 
they have.
    And for Russia and the Putin team, being at war in the 
Middle East is actually unfamiliar territory. Russia's goal in 
Syria is to consolidate Assad's regime to make sure that 
something stays in place until there is a better arrangement 
for keeping the Syrian state together.
    But intervening in Syria has been a very risky proposition, 
and to achieve the goal of keeping Assad in place, Putin 
requires large numbers of other players, not just the United 
States and European allies, to play along with Moscow at the 
negotiating table, as well as trying to head off operational 
setbacks, which will be inevitable on the ground in the Middle 
East. At this particular point, it is not clear how hard it 
will be for Russia to keep up the momentum that it has in 
Syria.
    Just to wrap up, with the economic downturn, Putin and his 
inner circle are under considerable pressure to keep on 
delivering foreign policy victories. These victories so far 
have boosted the Russian public's ratings of Putin's political 
performance.
    We have to bear in mind that with this highly centralized 
nature of Russian power, everything within the current system 
depends on the maintenance of President Putin's charismatic 
authority and his record as a leader. If the Russian people 
lose their faith in Putin as president, then the political 
system risks becoming destabilized.
    Putin's ratings are still very high. They would be very 
enviable in any context, but they are just a few percentage 
points short of 90 percent in the most recent polls.
    We have to remember that is also because of his record as 
president, but it is also in large part because of the siege 
mentality that we have in Russia today. Russians genuinely 
believe--this is reflected in polls not just at the elite level 
but at the public level--that we are out to get them in the 
United States and in the West.
    And although the Russian economy and the state budget have 
taken a beating since 2013, it is the wars which have deflected 
Russian public attention away from economic and political 
demands. Putin and his team have been able to blame all of 
Russia's woes on the United States and on Western actions and 
sanctions.
    Putin has shown he has been willing to pay a high economic 
and diplomatic price as he seeks to tip regional balances of 
power in Europe and the Middle East in Moscow's favor, but the 
question is for how long. Can Putin keep the population 
mobilized behind his presidency if things start to go badly 
wrong for the military operation in Syria? You can be sure if 
we are asking this question then Vladimir Putin and his team 
also are.
    So just to conclude, Putin's overriding strategy and his 
overriding goal right now is to secure--is security for Russia 
and his system and to press forward with his interests. We are 
talking today about deterring Russia, but Putin and his 
security team are also trying to deter us, the United States 
and NATO, from intervening in any way militarily against Russia 
in any of the conflicts in Ukraine or in Syria.
    Putin cannot any more afford the resources for the mass 
army total mobilization approach that the Soviet Union adopted 
during the Cold War to defend itself. So the whole of Russia's 
military modernization program is being geared towards a 
combination of conventional nuclear and nonconventional 
nonmilitary means, this so-called hybrid means of defense.
    Putin has also, as I mentioned at the beginning, tried to 
instrumentalize the idea of Russia military force to show us 
that he intends to use it. This also means that he has to show 
that he will use nuclear weapons under some contingency.
    These are the ultimate deterrent, but they are not much use 
as a deterrent if you don't believe that anyone is prepared to 
use them. This is why there is so much signaling about nuclear 
weapons, as I am sure we will hear from Dr. Farkas and Dr. 
Stavridis.
    So the goal for Putin is also to push away the United 
States and NATO, not to actually exchange in any nuclear or 
military exchange. This means that it is very tricky for us to 
both take onboard the nature of Russian threat perceptions and 
also to devise for ourselves coherent strategies and policies 
for dealing with the Russian threat.
    Thank you so much for your attention.
    [The prepared statement of Dr. Hill can be found in the 
Appendix on page 49.]
    The Chairman. Thank you.
    Dr. Farkas.

  STATEMENT OF DR. EVELYN N. FARKAS, FORMER DEPUTY ASSISTANT 
        SECRETARY OF DEFENSE FOR RUSSIA/UKRAINE/EURASIA

    Dr. Farkas. Thank you very much, Chairman Thornberry, 
Congresswoman Davis.
    It is, indeed, an honor to appear before the sister 
committee of the Senate Armed Services Committee, where I 
served as a professional staff member from 2000 to 2008. It is 
also an extra honor to appear beside my former boss, Admiral 
Stavridis, whom I hold in the highest esteem; and, of course, 
one of our foremost experts on Russia, Dr. Fiona Hill.
    So thank you very much.
    I will get right to the point: Russia poses a geostrategic 
threat to the United States and our interests. Indeed, last 
week, as we all know, Secretary Carter listed it first among 
the threats faced by our country.
    It is unfortunate and in the 21st century to have--in this 
21st century to have Russia and the United States opposed to 
one another on fundamentals and most foreign policy issues. But 
the reality is that the Russian government is pursuing policies 
that run counter to U.S. national security interests and 
values.
    The Kremlin objectives are clear, and I have about five of 
them that I will run through quickly: first of all, to retain 
President Putin's position as the leader of the Russian 
Federation, preserving the autocratic political system and 
mafia-style crony economy that together comprise ``Putinism''; 
second, to restore Russia's status as a great power; third, to 
rewrite the international rules and norms to prevent 
intervention in states to protect citizens; fourth, to maintain 
political control of Russia's geographical periphery--and by 
that I mean Eastern Europe and Central Asia; and, if possible, 
to break NATO, the European Union, and transatlantic unity.
    Now, we have seen what Russia can do with--even with its 
unfinished military modernization in advancement of these 
objectives. And since we can expect President Putin to be 
reelected in 2018 for another 6 years, we can't wish this 
problem away. We must use all elements of national power--
diplomatic, economic, informational, and military--to pressure 
Russia to reverse course.
    The United States must counter and resist Russia's actions 
through a combination of deterrence, strengthening our allies 
and partners, and communicating the truth about the Kremlin's 
actions to the world. For the sake of brevity, I am just going 
to focus on the military recommendations and we can talk about 
the other ones--diplomatic, economic, et cetera--in the Q&A, 
because obviously for this committee the focus is on the 
military.
    We must deter Russia from further military action. It is 
very important. And I, therefore, enthusiastically applaud the 
President and Secretary Carter's decision to more than 
quadruple down on the European Reassurance Initiative to 
establish a true deterrent to Russian military action against 
NATO.
    Congress should also urge the Pentagon to provide an 
aviation brigade to support the armored brigade combat team. 
And I can talk more about this, again, in the Q&A.
    On the non-NATO periphery, Congress should continue to 
support beefing up security assistance to Ukraine, Georgia, and 
Moldova in particular. They need more training; they need help 
with defense transparency and accountability. And we should 
provide all three countries with antitank weapons, which will 
provide them with the potential to deter the larger, more ready 
Russian forces.
    In Syria we must get our allies engaged on the battlefield 
and provide equipment and other support to the Syrian 
opposition. If we do also succeed in finding economic and other 
leverage--and I mention some of that in the written testimony--
this could also mitigate the need for more fighting, but more 
fighting is unavoidable right now.
    The Defense Department should no longer do business with 
Russia. This means no rockets used by the U.S. defense industry 
should be Russian, and we should establish a new foreign 
military assistance fund to help allies and partners throughout 
Europe and Afghanistan transition from Russian to U.S. military 
equipment.
    We must be united with our allies and partners worldwide 
and resolute towards Russian bad behavior. We need not enter a 
new Cold War or an across-the-board standoff with Russia. Where 
the Kremlin is open to cooperation and there are mutual 
interests, of course we should work with Moscow.
    But we should know that Russia will not work with us unless 
the Kremlin sees it in their national security interest or we 
have sufficient leverage to force a change in Putin's approach. 
We need leverage to succeed in negotiations.
    If we take the actions described in my testimony--and as I 
mentioned, I go into more detail in the written--we will raise 
the price to Putin for achieving his international objectives. 
Russia will be forced to reconsider its approach.
    Then perhaps the pent-up and misguided human resources of 
the Russian people can be directed towards a future, and we 
will have successfully managed what is currently the greatest 
geostrategic threat to U.S. national security interests.
    Thank you.
    [The prepared statement of Dr. Farkas can be found in the 
Appendix on page 69.]
    The Chairman. Thank you.
    Admiral Stavridis, welcome back.

  STATEMENT OF ADM JAMES G. STAVRIDIS, USN (RET.), DEAN, THE 
               FLETCHER SCHOOL, TUFTS UNIVERSITY

    Admiral Stavridis. Thank you, Mr. Chairman, Representative 
Davis. Please also pass my best wishes on to the ranking 
member.
    It is a pleasure to be back in front of the HASC [House 
Armed Services Committee]. I have testified here many, many 
times over the years, both as U.S. European Command, NATO 
commander, and before that as commander of U.S. Southern 
Command.
    But today I am here in my personal capacity. I will kind of 
draw on some of my research and work as the dean at the 
Fletcher School at Tufts University, and also some work I am 
doing at Johns Hopkins Applied Physics Laboratory.
    I will begin by saying that the top global challenge I see 
for the United States today is, in fact, the European problem. 
And that constraint is made of refugees coming in, economic 
challenges, but a big portion of it is the overhang from 
Russia.
    And I think that for the United States our best pool of 
partners are going to be the Europeans. And if they are facing 
this challenge from Russia, as you have heard outlined so well 
by Dr. Hill and Dr. Farkas, that has significant implications 
for the United States.
    There is good news about NATO. Let's face it, it is 28 
nations, 50 percent of the world's GDP [gross domestic 
product], and a significant defense spending, probably $900 
billion in total--$600 billion from the United States, $300 
billion from Europe. So there is a lot of capability in NATO 
today.
    But the spending is declining. Our European allies are only 
spending about 1.4 percent of their GDP, well under the NATO 
goal of 2 percent. And at the same time, as you have heard 
outlined particularly by Dr. Farkas but as well by Dr. Hill, we 
are seeing Russia doubling down on a military approach.
    Russian defense spending is going up, even given the 
constraints of the fall in oil prices and the general global 
slowdown in the economy. Their defense spending has risen 25 
percent in just the last 2 years.
    Today they have about a million men and women under arms, 
most of them conscripts; 2 million reserves; 270 significant 
warships; thousands of military aircraft. They remain a very 
significant military power who continues to improve their 
forces in very specific areas.
    So we need to be very cognizant of the challenges there. 
And when we couple that capability on the part of Russia with 
demonstrated intent to use it in Georgia, in Moldova, and, of 
course, most dramatically, in Ukraine, followed by the 
annexation of Crimea, something that, frankly, I could not have 
imagined happening when I was the NATO commander just several 
years ago.
    So when you couple capability with demonstrated intent to 
use it, and it is positioned alongside our greatest pool of 
allies, you see the significance of this challenge.
    A subset of this I think is the Russian cleverness in 
approach of how they are using military force. Some have called 
this hybrid warfare. It is a mix of special forces; information 
warfare; cyber, an area in which Russia is demonstrating 
extremely accelerated capability; and this element of surprise, 
building real ambiguity into their maneuvers. Very concerning.
    So when we put all of that together with the snap 
exercises--and as Dr. Hill mentioned, we are going to see this 
pattern repeated--and most recently--and neither of my 
colleagues have mentioned this--we see significant studies 
being done--I will cite one by RAND [Corporation] which just 
emerged that indicates the Russian ability to sweep into the 
Baltic capitals in really a matter of days--60 hours is the 
number that was used. I participated in a recent war game 
exploring this and I believe this is an accurate assessment.
    So what should we do about it? Well, you are going to have 
an opportunity, of course, to talk to my successor, General 
Phil Breedlove, in the coming weeks. I am encouraged by the 
increase in defense spending to focus on Europe.
    As Representative Davis reminded us, this is almost 
quadrupling. But let's face it, it is from a relatively low 
baseline.
    We have withdrawn brigade combat teams over the last few 
years. We should strongly consider returning those to Europe. 
And I think Dr. Farkas has hit the correct mix: Aviation, armor 
is what is going to be needed.
    As I look at the situation overall, I think NATO has the 
long-range capability, but in the short term we face real 
challenges from Russia.
    So fundamentally, I think we need to continue to maintain a 
posture of deterrence. We need to use sanctions and continue to 
strengthen those as we look at Russian behavior.
    We need to maintain our own nuclear deterrent. 
Unfortunately, that is going to be part of this equation.
    And I think we need to reassure our allies in Europe, 
because by reassuring them we can hopefully encourage increases 
in their own defense spending, which is their responsibility, 
to put alongside our good work in Russia.
    I will close by echoing something Dr. Farkas said, which is 
we don't need to stumble backwards into a full-blown Cold War. 
That is in nobody's interest. But I believe we should cooperate 
where we can in places like Afghanistan, counterpiracy, 
counternarcotics, counterterrorism, but we must confront where 
we see the need to do so.
    I think today when I look at Russian behavior broadly and 
globally, to include Syria, where they are supporting a 
reprehensible regime, I think we do need to confront. And that 
includes significant deterrence. And the good work of this 
committee, its support of the Armed Forces of the United 
States, will enable us to be a strong partner in doing so.
    Thank you, Mr. Chairman.
    [The prepared statement of Admiral Stavridis can be found 
in the Appendix on page 78.]
    The Chairman. Thank you.
    There are a lot of issues one would like to pursue. I am 
going to try to limit myself to just a couple that focus on our 
responsibilities and how--what sort of military capability we 
ought to help build to deal with the situation that the three 
of you have described.
    Later this week our Strategic Forces Subcommittee has a 
hearing on our own nuclear deterrent.
    And, Admiral, you just mentioned the importance of that as 
one of the elements. Can you, and perhaps others, describe the 
role of nuclear weapons in Russia's thinking and in how that 
translates to what we should be focused on?
    Because I think a lot of Americans don't realize that 
Russia continues to modernize its nuclear stockpile; it 
continues to manufacture new weapons with different 
characteristics. Meanwhile, we are sitting here trying to keep 
the 1980s versions working.
    So the role of nuclear deterrence in this broader context 
is what I am trying to understand.
    Admiral Stavridis. Sir, as you know, today Russia maintains 
about 1,500 strategic warheads, about 1,000 in reserve, 
probably 2,000 to 3,000 tactical nuclear weapons. It is a 
significant stockpile. As you indicate, it is being modernized.
    The United States maintains some level to meet that, and 
that mutual assured destruction philosophy will continue to 
matter at the strategic level.
    What concerns me in Europe, as Russian forces are not as 
strong as they were during the Warsaw Pact days, you see a 
potential--and we are reminded of it fairly frequently by 
President Putin--of the use of nuclear weapons in matching NATO 
forces. So it is the Russians who have indicated a reminder to 
us. And here I think we are really looking at intermediate 
nuclear range missiles as well as the tactical nuclear devices.
    So I think, unfortunately, this is a significant resource 
constraint, but it is necessary to modernize these in order to 
meet Russian challenges.
    I think Dr. Hill probably has some expertise on this, as 
well.
    Dr. Farkas. Well, if I can just add to that, I agree 
wholeheartedly with the admiral. Obviously it is important for 
us to maintain our nuclear deterrence with Russia. They 
absolutely rely on their strategic nuclear forces to maintain 
their status, frankly, as a global power.
    But, given their conventional weakness relative to us, they 
also place, unfortunately, too much emphasis on their tactical 
nuclear weapons. And under President Putin, they have actually 
refined their military doctrines such that they permit a 
nuclear first use against a conventional attack.
    So in response to a conventional attack against Russia, if 
the Russian government deems it a threat to the existence of 
the state, which of course is in the eye of the beholder or the 
leader--if they deem it a threat to the existence of the state, 
even if it is a conventional attack, they can use tactical 
nuclear weapons to respond. And that is a very dangerous 
development, especially given the fact that they have been 
making these very loose comments, this loose nuclear rattling--
saber-rattling comments coming from the Kremlin, coming from 
their ambassador in Copenhagen and elsewhere. So I think we are 
quite worried about that.
    And they also have a doctrine whereby they believe that 
they can deter the United States and other countries from 
intervening in an ongoing military operation, say against a 
NATO ally or against some other country, by escalating in order 
to then, they say, de-escalate. And the de-escalation would 
mean if they escalate, the opponent--say the United States, we 
want to come help our allies--we would say, ``Oh, this 
escalatory attack coming from Russia,'' whether it is cyber, 
tactical nuclear, you name it--``that is too much for us to 
respond to. We don't want to escalate.'' So we de-escalate, in 
essence, and let the Russians do what they would like to do.
    So it is a bit complicated, and I don't--I probably went a 
little bit into the weeds of the Russian doctrine. But I think 
it gives you a sense of how dangerous the situation is right 
now because, unfortunately, the Russians really are relying on 
their tactical nuclear weapons to an extent that we find 
alarming in the United States.
    And the only other thing I would mention before I turn it 
over to Dr. Hill is, of course, we are also watching very 
closely the INF development, the Intermediate Nuclear Forces 
and the fact that the Russians have violated that treaty. And 
as I mention in my written testimony, I believe that the United 
States needs to be prepared to deploy, unfortunately, 
intermediate nuclear weapons back to Europe if the Russians do 
not roll back their program.
    Thank you.
    Dr. Hill. Just to add to this, this is the area that we 
should be paying the most attention to when we are trying to 
figure out the Russian approach. As we have been making clear, 
they are talking about tactical intermediate nuclear weapons 
here, which is something quite different from the strategic 
nuclear arsenal that we have been trying to address through the 
New START [Strategic Arms Reduction] Treaty, which still seems, 
actually, to be holding in place.
    But it is that whole element of tactical surprise, which is 
key right now to the military momentum that Putin and the team 
around him have been trying to build up since the war in 
Georgia in 2008. The whole point of everything that we have 
seen has been to show us that the military is not just there 
for show, it is there for use.
    As I said in my oral remarks, it is there to be an 
instrument of policy. And it is no good if people just think, 
you know, you might be toying with the idea of using things. 
People have to believe that you will use them under the certain 
circumstances.
    And this is why all of the contingencies that we have been 
highlighting here have been put on the table. The team around 
Putin wants us to think that Russia will, in fact, use tactical 
and intermediate nuclear weapons.
    This is part of the whole violation of the INF Treaty. And 
we will be coming up to the anniversary of the treaty next 
year, in fact--the treaty from 1987.
    In many respect, Putin and the people around him want us to 
go back to that mentality of 30 years ago, of believing that 
the only way to engage with Russia directly is in these 
military contexts. They want to be taken seriously and to be 
seen as a credible threat by us and by NATO. And again, 
credibility depends on making it very clear that this is not an 
idle threat.
    One of the biggest problems that the Russians perceived in 
their engagements with the United States prior to the war in 
Georgia in 2008 was that we did not take any of their threats 
seriously. When they established a red line about the expansion 
of NATO we didn't believe them.
    In fact, in some meetings that some of us were in in the 
past, we heard senior U.S. officials say things like, ``Well, 
the Russians will shout and they will stomp their feet but they 
won't do anything,'' because they haven't in the past. This is 
in meetings that some of us in previous capacities took part 
in.
    The point was that they did not have the capacity to take 
military action in the past under Yeltsin and, frankly, under 
Gorbachev in the late period of the Soviet Union, when the 
state was very much weakened. Putin wants to show that now the 
Russian military has that capacity.
    We didn't get the message in 2008. Now we are getting the 
message.
    So the whole point of this is not to engage in a nuclear 
exchange, but just to make sure that we know that Russia means 
business.
    So we have got to actually have a different debate with 
Russia now about deterrence. We have got to make it very clear 
to people like Putin and those around him, who are not military 
people--engaged in the past in conventional discussions, if one 
can call it that, of deterrence; who are not members of the 
politburo of the old Soviet military who understood how that 
kind of deterrence works, that this is actually unacceptable 
and that just even toying with the idea of using tactical nukes 
in any kind of battlefield scenario will result in the most 
dire circumstances.
    So it is a very different debate that we need to be having 
with Russia than we have had before.
    The Chairman. Well, thank you all. I think it is a very 
important issue about the lessons others draw from our actions 
or inactions that applies in all sorts of places.
    At some point I want to explore the hybrid warfare and what 
that means for own capabilities. In the interest of time, I 
will yield to the--Mrs. Davis for any questions.
    Mrs. Davis. Thank you, Mr. Chairman.
    And actually, that is probably an area that I wanted to go 
into as well, and just having you talk more about Russia's use 
of hybrid warfare, unconventional, more clever, all the--what 
you had mentioned earlier. And is it true? I think part of it 
is to exert influence and go as far as they can without 
triggering Article 5.
    So, then, where are we? And could you speak to that?
    And obviously in terms of NATO and in terms of the European 
Alliance it is difficult to actually draw a line in this 
context, but take us a step further with it because the game 
has obviously changed, as you said, that there is a real 
difference in their capacity now, and yet we don't want to be 
drawn into something for the sake of being drawn into something 
to respond to their test. So----
    Admiral Stavridis. Let me begin, if I could, with Article 
5, since you brought it up. This is the fifth article of the 
NATO Treaty and it says an attack on one shall be regarded as 
an attack on all. It is kind of foundational to NATO.
    Article 6 of the treaty actually goes on to define an 
attack. It is a far less well-known article. It is really worth 
getting out and reading; it is only two sentences long, but it 
defines an attack as air, sea, and land upon the forces or 
citizens of a NATO state.
    So that would have been really clear as a definition in the 
1950s, when the treaty was being constructed, implemented, and 
developed. Today, with particularly cyber, it becomes 
ambiguous.
    So when is a cyber event a cyberattack? Is it when your 
accounts are surveilled? Is it when your data is manipulated? 
Is it when the data is destroyed? Is it when you have a kinetic 
outcome--in other words a cyberattack that destroys your 
ability to land aircraft, to move trains? When is a cyberattack 
occurring?
    Russia sees this ambiguity as an element in hybrid warfare, 
and I think that is a good starting place for NATO is to think 
about what is an attack in a Article 5, Article 6 context? 
Because cyber will be big part of hybrid warfare.
    A second element will be unmarked soldiers, so-called 
little green men, typically moving across borders. The war game 
I just completed with the Center for New American Studies here 
explored that quite fully, and it is kind of special forces but 
it includes this element of really taking off your military 
badges so that in the information campaign alongside it, as a 
state you can deny that these are your soldiers. You can say, 
``These are volunteers. These are former Chechen veterans who 
are on their vacation going into a nation.'' You build more 
ambiguity in the little green men.
    Alongside the cyber and the little green men comes the 
information campaign, which I just mentioned. You deny 
everything. You say, ``This is not state activity.'' We have 
seen this again and again, particularly in Ukraine in the 
Donbass region.
    So these kind of elements strung together present a real 
challenge in the NATO context exactly as you bring up, 
Representative Davis----
    Mrs. Davis. Yes.
    Admiral Stavridis [continuing]. Because it is difficult to 
make the call that we are under attack. And this potentially 
could be used against Estonia, Latvia, Lithuania.
    A final factor I will mention is the presence of Russian-
speaking minorities and a Russian doctrine that says: We will 
defend Russians wherever they are; and, by the way, we will 
define what a Russian is.
    Mrs. Davis. Admiral, I just wonder whether you felt that 
NATO would likely be much more definite about where these tests 
would be responded to.
    Admiral Stavridis. I think prior to Ukraine I think I would 
have been more concerned. I think today, because of the way the 
Russians have, if you will, revealed their hand so dramatically 
in Ukraine and Crimea, I think the sensors are up in NATO. 
People are really watching this.
    And again, in the war game, which had a lot of European 
colleagues involved, we moved very quickly to respond to this. 
Dr. Farkas was at that war game as well and might like to 
address it.
    Dr. Farkas. Thank you very much, Admiral.
    And thank you, Congresswoman.
    I think the only thing I would add--I absolutely agree that 
the problem with the unconventional approach is the surprise 
and the ambiguity of what is an attack. I think the approach 
that we have taken with our allies, in particular in the NATO 
context but also with the non-NATO periphery countries, is to 
try to strengthen their capacity. That is why this ERI 
[European Reassurance Initiative] money is actually really 
important because some of that goes to the special operations 
training that we are doing with Baltic countries, again with 
Bulgaria, Romania, Poland, all those periphery countries in 
NATO as well as the ones outside.
    If we strengthen their ability to respond, obviously that 
will lower the likelihood that we will have to, as you said, 
respond to a Russian attack--an unconventional attack ourselves 
through NATO, that local forces can take care of it. And when I 
say ``local forces'' I don't actually mean necessarily the 
military forces, although our SOF [special operations forces] 
folks are in there working with the military. We also need to 
look at the local police, the law enforcement authorities, 
national guard.
    So part of the hybrid means that, unfortunately, as you 
know, it is hard for us because of our authorities. We need to 
be working closely with our State Department colleagues and 
mixing funding, if you will, to conduct the training that is 
required.
    So I think strengthening the allies is really important, 
and then another thing that I mentioned and the admiral 
mentioned, the information campaign. We have seen now that the 
State Department is setting up this new cell to address the 
messaging with regard to the counterterrorism effort that we 
are conducting with our allies and the need to get information 
out to counter the radical Islamist ideology. Well, I would 
argue that we need a similar cell like that to counter the 
Russian propaganda.
    So I will leave it at that and turn it over to Dr. Hill.
    Dr. Hill. I will pick up on what Dr. Farkas just said about 
the State Department cell. And I have to say, I am afraid, that 
I don't think that that will actually do the business that we 
need to be done.
    I think, as we are all outlining here, that this is a very 
sophisticated approach on the part of the Russian government, 
and we have to be very cognizant of how broad-ranging that is. 
And it again gets back to the very fact that Putin and the team 
around him--and again, we have to just bear in mind that it is 
not just Putin, it is a larger group of people--all have the 
same outlook and perspective as operatives.
    This is an unusual group of people that we are dealing with 
as world leaders and the inner circle. It is very hard to find 
some counterpart who is similar to this elsewhere.
    And then again, they are not military people. It is the 
coin of the careers has been dealing in a clandestine fashion, 
and disassembling and dealing with information and 
misinformation, and, you know, as Putin has always put it, 
working with people to manipulate situations. So they all think 
along these lines.
    It is not some character flaw. It is what they have been 
trained to do.
    And it is incredibly all-encompassing. When Putin thinks of 
an operation he doesn't just think about the military aspects 
of this. As Admiral Stavridis said, it is all aspects of cyber 
and it is political.
    The State Department, frankly, will be run around in 
circles if that is kind of the focal point of what we do, and 
we don't have the capacity or the resources for this.
    Russia is engaged in the information space in creating a 
moral equivalency with the United States and with our allies at 
all different levels. You will find from public opinion polls 
across Europe as well as in Russia itself that everyone 
believes that we are engaged in exactly the same activities.
    Hybrid warfare is extraordinarily old. The Tsarist regime 
used to engage in hybrid warfare. All the discussions of the 
old game between the British Empire and the Russian Empire back 
in the 19th century--these were all aspects of hybrid warfare, 
of clandestine operatives, you know, running around trying to 
subvert regional leaders from the Indian Empire onwards.
    So everyone believes that we have been engaging in this for 
some time. And in fact, what is different now is that the 
Russians have said that they are going to engage the United 
States and its allies in the same kind of tactics that they 
believe we have been doing.
    And I have to say that they firmly believe that we have 
been engaging in clandestine operations in a continuous fashion 
since the war in Afghanistan onwards. They don't believe that 
we stepped down at all at the end of the Cold War in terms of 
the kinds of operations that we have been doing. And in fact, 
they took the operations that we have launched in 
counterterrorism as just an affirmation that we have never 
really changed our operational perspective either.
    And also, with having Edward Snowden sitting in Moscow, it 
is not just for the propaganda value. They believe very firmly 
that we are engaged in exactly the same tactics that we are.
    Putin's viewpoint is that the United States lies; it spies 
on everybody; it engages in these kinds of activities. I am a 
spy; of course I engage in these activities, and I don't lie.
    And so the whole point of the information war is to show 
that Russia and the United States are very similar and to kind 
of discredit her is also in the environment. So we actually 
have to counter that on multiple levels. It is an all-
encompassing political exercise.
    And it also requires other leaders, our allies in the 
European capitals, media, the think tank world that I belong 
to, and everyone else to be very cognizant of what we are 
dealing with. We all have to do our homework, both inside and 
outside government, in figuring out how to contend with this.
    Dr. Farkas. If I could, Mr. Chairman and Madam 
Congresswoman, just to counter a little bit on the point about 
the State Department can't actually compete with Russia. That 
is true, but I think what I am proposing is a very important 
component of the overall approach towards Russia, which 
obviously in the U.S. context has to include private media, 
public-private ventures, et cetera.
    But I think what has been missing--and it was very 
frustrating for me when I was in the government--was an ability 
to share information with our allies, with our partners, and 
with the world writ large, based on our excellent intelligence 
sources.
    We are not very good at declassifying and reclassifying 
information that is not propaganda, showing pictures of what 
the Russians are doing. We did it a couple of times, and 
interestingly, the Open Skies Treaty was actually useful 
because, unlike satellites, that is unclassified data that is 
gleaned as a result of aircrafts that take pictures for the 
purposes of our treaty requirements.
    But in any event, I think that we can do more just by 
getting some information out. That is the minimum that the 
State Department could do and should do, together with the 
intelligence community. But it should also be a push, not a 
pull--not leaders like yourselves or executive branch members 
saying, ``Declassify that,'' but actually the intelligence 
community looking with the State Department, ``What should we 
declassify?'' not waiting for somebody to tell them to do it.
    So that is the only thing I wanted to point out there, that 
it is important that we share that information.
    The Chairman. Thank you all.
    We are now going to have to operate under the 5-minute rule 
to try to get to everybody, and I will yield to the 
distinguished gentleman from South Carolina, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you for being here today.
    And I have a particular interest in what you are saying and 
doing because in September 1990 I visited as a tourist to 
Moscow. I was so hopeful, and I have studied Russian history 
and Russian culture. I really appreciate their contributions to 
the world.
    But it was startling in 1990. It was like stepping back 
into 1917 and it was the end of a failed socialist era of empty 
stores, empty streets. But I was just so hopeful seeing the 
pre-1917 architecture. It was just awesome--and then the 
talented people.
    But it has just been--what I was hoping for was a 
partnership between the people of Russia, Europe, the United 
States, for the betterment of the Russian people. But sadly, on 
subsequent visits across the country with my family, we saw the 
beginning of a free-market society, a modern society. But it 
has evolved now, sadly, as indicated, into an autocratic 
political system, a crony capitalist system of some type 
benefiting the elite.
    I am still hopeful for the country and the Russian people, 
but what challenges we and they have.
    With that in mind, I have a question for Dr. Hill and Dr. 
Farkas.
    And actually, Dr. Hill, you substantially already answered 
the question.
    But let me go to Dr. Farkas, from your point of view, which 
is really interesting.
    But as chairman of the Emerging Threats and Capabilities 
Subcommittee, Russia's ongoing information propaganda operation 
is of great concern. And I share the interest of the chairman. 
What do you believe DOD [Department of Defense] should do to 
better compete in a new sphere of hybrid warfare, and how do we 
counter Russia's information propaganda operations?
    Dr. Farkas. Thank you very much, Congressman Wilson.
    I think I have laid out some of the components already, so 
with regard to dealing with the hybrid, I think all of the 
special operations training that is ongoing. And there is also 
some assistance that is being provided to embassies on the 
strategic communications front, so helping ministries of 
defense communicate better within their society what they are 
doing. And I am specifically thinking about Ukraine, where we 
have been pretty active, helping our ambassador work with the 
Ukrainians. So we need to do more of that.
    I don't think, first and foremost, though, the strategic 
communication is the Department of Defense's responsibility, so 
I really do think that the State Department should take the 
lead on that and DOD should be in support.
    But the special operations forces have a special niche 
capability with their so-called NIST [National Intelligence 
Support Team] teams, these informational teams. They can help 
embassies work with foreign governments.
    The other thing, of course, is just in training them to be 
able to see when things are happening and changing on the 
ground. And there is an intel component there, so obviously the 
Department of Defense's intel capabilities need to be brought 
to bear on the situation.
    So I think those are the main components, aside from the 
ones that I already mentioned.
    Admiral Stavridis. Can I just add to that mix--I think that 
is a good shopping list, but it is also cyber, as I hope I 
indicated. I think this is an area Russia is really moving 
rapidly, along with other nations around the world, and I think 
the ability to compete in that space is something we need to 
emphasize as well.
    Thanks.
    Dr. Hill. Let me just add one small point, that there is a 
very important role that our armed services can still keep 
playing through professional-level exchanges with Russia. 
Although we should not be doing any of the things that Dr. 
Farkas warned us against in terms of some of the weaponry 
issues and some of the joint ventures that we have engaged in 
previously, those professional-level contacts are still of 
extraordinary importance, especially for strategic 
communications--it is messaging.
    Because just as you said at the very beginning, we do not 
believe that Russia is any kind of implacable foe or enemy. 
What we have a problem with is the particular conduct and 
posture of the current Russian government and the way that they 
want to seek to use the military as a tool in their foreign 
policy.
    We have to make it very clear that there is still a 
different possibility ahead of us for a different kind of 
relationship, as we have already said, on many issues where we 
have mutual interest. And those professional-level contacts are 
very important in emphasizing that.
    There is a great deal of respect for the U.S. armed 
services among the Russian military, and we should capitalize 
upon that when we communicate with them.
    Mr. Wilson. And I have actually seen the benefit of people-
to-people, too. In my community of central South Carolina we 
have a very thriving assimilating Russian-American population 
who are--we have many visitors coming from Russia, and 
hopefully they see the positive society we are.
    Thank you. My time is up.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you, to the witnesses, for your testimony today.
    Admiral Stavridis, in your written statement you mention 
that Russian submarine activity has risen to a level not seen 
since the Cold War days. Could you elaborate on that?
    Admiral Stavridis. Sure. If you look back at the Cold War, 
we saw, if you will, ``The Hunt for Red October.'' We saw vast 
armadas of undersea forces playing cat-and-mouse games 
throughout the Arctic, through the Mediterranean, through the 
Greenland-Iceland-U.K. gap in particular, as well as peripheral 
kinds of encounters, both under the ice and at the very bottom 
of the pole, as well.
    So that diminished significantly as we came out of the Cold 
War. Now I would say we are back up to a level of activity that 
I would say is probably 70 to 80 percent of what we saw during 
Cold War times, and that implies more patrols coming closer to 
the United States, more probing kinds of activities.
    As you are well aware, this gets into highly classified 
information quite rapidly, but I think I will close there and 
say that a closed-session briefing on this might be of great 
interest to the members.
    Mr. Courtney. Thank you. And just again, in your testimony 
you talked about, again, the change that is happening in the 
landscape there in terms of military buildup, and that--I think 
your term is, ``Unfortunately, we are not currently configured 
to detect and respond to these types of moves in a robust and 
immediate military fashion.''
    Again, you talked about ground troops and air assets that 
need to be boosted. Can you talk a little bit about naval 
response? Again, on sea power, you know, we spend a lot of time 
talking about the pivot to Asia-Pacific, and we have had some 
of those briefings that you mentioned earlier. But I guess 
could you talk about that configuration----
    Admiral Stavridis. I can. In terms of the Russian fleet, as 
I mentioned in my opening remarks, it is not a huge fleet; it 
is 270-ish kind of ships. But its submarine force in particular 
is extremely high-tech and extremely capable and is a real 
instrument that is being used most aggressively at this point.
    If we look at the building programs, what is on the waves 
and what the Russians communicate to us about what they are 
going to build, they are going to increase the conventional 
surface force as well quite significantly.
    So we are seeing robust activity, particularly in the 
subsurface venue. And it is less about the platform and more 
about the uses to which they are being put, which again are 
much more aggressive than we have seen really in a decade.
    Did you want to add something, Evelyn?
    Mr. Courtney. We don't have a lot of time here, and I 
just--so the lay-down that we, you know, have been looking at 
for the last 10 years in terms of shifting assets to Guam and 
other parts, I guess that is the question I was sort of--I 
mean----
    Admiral Stavridis. Got you. Sir, I would say the Pacific 
pivot made some sense 2 to 3 years ago. I think at this point 
we ought to be reassessing that as a theory, recognizing that 
the United States is a global power and we have global 
interests, of course.
    But as I look at the strategic landscape of the moment, I 
would say it is a good time to be reassessing whether we want 
to shift a significant portion of the fleet into the Pacific.
    Mr. Courtney. And lastly, the Russians have about 42 
icebreakers shored up in the Arctic, and as Mr. Garamendi has 
been working hard on the Coast Guard Subcommittee, you know, we 
are definitely struggling to get up to speed. I was wondering 
if you could just sort of comment on----
    Admiral Stavridis. I can.
    Mr. Courtney [continuing]. On that issue.
    Admiral Stavridis. The Russians, as you know, are extremely 
robust in the Arctic. They have a huge number of icebreakers. 
We have a total of one operational icebreaker. China has many 
more than we do.
    This is something that needs to be corrected. I would 
invite the committee to read into the record the article I just 
wrote with General Schwartz about a solution for icebreakers. 
There is no question that the high North is going to be an area 
in which we need to be much better, and icebreakers have to be 
part of that.
    Mr. Courtney [continuing]. Dr. Farkas, I have 40 seconds 
left. I don't know if you want to jump in on any of these 
issues.
    Dr. Farkas. I think really just to say that the submarine 
force is an area that the Russians have emphasized in their 
modernization, as opposed to the surface fleet. Most of their 
modernization is very focused.
    And the missiles are also something that--the missile 
capability they have improved. And then, as the admiral 
mentioned, it is what they could do. So we need to have good 
situational awareness, and I think, again, the submarine fleet.
    The only other thing I would add is that the Russian fleet, 
of course, is also in the Pacific and our Pacific forces are 
watching them closely there, as well.
    Dr. Hill. And just one point, because China came up, that 
Russia is not just thinking about the United States as a long-
term threat in the Arctic. For Russia, the Arctic and the Asia-
Pacific theaters--maritime theaters--are connected, and they 
are literally connected physically.
    And Russia is worried about Chinese, Korean, and other 
incursions as the ice melts in the Arctic and shipping opens. 
Because for Russia this is about their commercial fleet, not 
just about their military posture in the Arctic.
    So I think we have to have a very broad-ranging discussion 
of the Arctic, not just from our own perspective.
    The Chairman [continuing]. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you all for being here.
    Admiral Stavridis, especially grateful to you for your 
lifelong service to freedom, and appreciate you being here.
    With that, I would like to direct my first question to you, 
and that is, how important do you think it is for U.S. national 
security concerns to cooperate to--between the U.S. government, 
the United States Congress, and the Ukrainian National Security 
and Defense Council? That is sort of a broad question, I know, 
but----
    Admiral Stavridis. It is. I have spoken and thought a great 
deal about this.
    I, for one, am a strong supporter of Ukraine. I think it is 
an important nation; it is a big nation; and it is at play in 
terms of either falling into a Russian orbit--that is obviously 
the desire of President Putin--or fulfilling an opportunity for 
a transatlantic relationship, a future grounded in the European 
Union in economics with Europe. It is highly to the interest of 
the United States that that competition move Ukraine in a 
direction of the West.
    Mr. Franks. Yes.
    Admiral Stavridis. How can we do that the best? Through the 
mechanisms as you are describing, through financial support, 
and, I would argue, through carefully crafted military support 
to the Ukrainian military, which I think is not destabilizing 
but would in fact have a deterrent effect on Russia.
    Mr. Franks. Yes. Well, couldn't agree with you more.
    Let me shift gears in a completely different subject.
    I was a little--``discomfited'' I suppose is an 
understatement--at some of the comments of Russian General 
Slipchenko here some time back and his cooperation with Iran, 
and their electromagnetic pulse [EMP] ambitions and their, you 
know, their military doctrine passive defense on how they would 
be able to resist countries such as ours. And they mentioned 
electromagnetic pulse there 22 different times.
    What is your own understanding of Russia's EMP offensive 
capability, and what implications does that have for us, both 
directly and in their cooperation with Iran?
    Admiral Stavridis. Again, without broaching into classified 
information, I will confine myself to say Russia has a 
significant EMP, electromagnetic pulse, capability. It could be 
devastating in the United States. It is a mechanism wherein a 
nuclear blast at the right level can knock out an enormous 
amount of our cyber capability. Some have referred to this as 
the event that causes the cyber Pearl Harbor.
    This is a significant challenge for us. The fact that 
Russia would even have conversations about that with Iran is 
very disconcerting because this is the way a rogue nation could 
use only one or two nuclear weapons to impact dramatically a 
large society like the United States.
    I will close on Russia and Iran by pointing out that today 
we see the fulfilment of the sale of the S-300 anti-air warfare 
system, highly prized by the Iranians. I think we, 
unfortunately, will see nothing but further cooperation between 
Russia and Iran in a variety of spheres.
    Mr. Franks. Well, I obviously am glad you are on our side, 
and I hope your voice is carried far and wide.
    If I could shift gears, Dr. Farkas and Dr. Hill, I will 
point this to both of you, related to how increasing our 
assistance to European allies will affect Russia's behavior in 
Syria. You know, there are a lot of folks at this point that 
have thought, ``Well, with Assad being in power there is no 
real chance of us dealing with anything of consequence there.''
    But will Putin double down or will he begin to find his 
resources growing thin? What impact can we still have there, 
and especially with Russia's obvious support for the Syrian 
regime?
    Dr. Hill. Yes, just quickly on this, because it links into 
Admiral Stavridis' response to you about Iran. Russia has not 
intervened in Syria just because of us. Russia sees the order 
in the Middle East as completely broken down now, the order 
established since Suez in 1956, and it wants to make sure that 
it has some say there because it is a whole set of interests, 
including relationships with Iran, with Egypt, with Israel, and 
many of the other players that we also have close relationship 
with.
    It also has a lot of tensions with countries like Saudi 
Arabia, Qatar, and now, of course, with Turkey, as a result of 
the incident back in last November.
    So Russia actually has a very tall order on its hands here 
with the intervention. It actually needs the United States to 
help it get out of what could potentially be a quagmire on the 
military side into some kind of negotiation.
    Its starting point is obviously to keep Assad in place in 
some semblance of the Syrian state, which is what it is pushing 
us towards right now. But Russia seeks a balance of power in 
the Middle East that will protect its interests, as well.
    So we do actually still have some leverage there as long as 
we can remember that it is not all about us in the case of 
Syria.
    Mr. Franks. Thank you, Mr. Chairman.
    Thank all of you.
    The Chairman. Thank you.
    Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    And thank you all for your wisdom and your service.
    Under the leadership of the chairman I was able to visit 
Ukraine and Eastern Europe a few months ago and--last year--and 
I was struck by the enthusiasm that the Eastern European 
countries shared at having us participate in drills. We had 
tank drills going on; we were very enthusiastically positioning 
aircraft; the military talked excitedly about extending our 
plans to counter a Russian invasion further east with our new 
NATO allies.
    And to be perfectly honest, I was shocked at how little we 
were doing to counter the Russian hybrid warfare threat. And it 
reminded me of what it must have been like to see France 
releasing excited press releases about their reinforcement to 
the Maginot Line when Germany is building tanks.
    And so when you look at the ERI and where we are putting 
our resources, because we obviously, as we all know, live in a 
resource-constrained environment, I just find it hard to 
believe that we are making smart strategic decisions when we 
are supporting all these tank drills at the necessary expense 
of expansions in our cyber warfare, and other hybrid warfare, 
and special operations, and other things like that.
    So I was wondering if you could comment on that a bit and 
speak specifically not just to the need to address hybrid 
warfare, but at the right balance we need to strike with our 
resources.
    Dr. Farkas. If I could just quickly on this, I think part 
of what is important to bear in mind is that the base budget 
also addresses the hybrid threat. So the special operations 
community--and I give General Votel a lot of credit because he 
turned around very quickly and came up with a plan to address 
Russia.
    And I actually suggest that the committee invite him--well, 
now his successor--to brief you on their plans to address the 
Russia threat, because they understood very quickly what was 
going on in the aftermath of Crimea and, I would say, within 
the Department responded very--relatively rapidly, for the 
Department. So there is money in their base budget, and in the 
U.S. European Command they have turned around and they are 
already doing a lot of training. So they have been doing 
training in other countries, not just in Ukraine.
    In Ukraine, as you noted, they are just starting.
    Mr. Moulton. Right.
    Dr. Farkas. But they actually have a jump ahead. They have 
already been working in the Baltics and Georgia and other 
places.
    So I think the base budget has some money there.
    It is not necessarily a question of money, because what the 
special operations forces do in terms of building that 
resiliency internally doesn't cost as much, frankly, as the 
importance exercises that ERI funds for us to demonstrate to 
the Russians that we will be ready, that we will respond as a 
unified alliance if they take military action towards us.
    So I think it is hard to compare the dollars because you 
just need more dollars to do the conventional stuff, whereas 
the unconventional stuff generally doesn't cost as much.
    Mr. Moulton. Right. But if Russia is beating us on the 
unconventional side then does it really matter whether we are 
training three tank battalions or five? Is that really an 
effective deterrent?
    Dr. Hill, perhaps you could comment on that.
    Dr. Hill. It is really about the way that we approach this 
issue. I mean, one of the reasons that we see that Russia has 
been beating us in this regard is because they have had a very 
strong sense of purpose and focus.
    We have made a lot of mistakes in kind of miscalculating 
Russia's intent, and that is kind of something that has now 
come to bite us, frankly, since the war in Georgia. We saw that 
as a one-off. We were taken by surprise by Crimea.
    We didn't foresee what they were going to do in Syria, not 
because we didn't see them moving material and equipment in 
Syria; it is because we weren't able to anticipate what they 
might be doing.
    As we have heard, however, that our sensors are up now in 
NATO and elsewhere. And I think what we have to do overall is 
posture ourselves in terms of analysis, as well. It is not just 
an issue of intelligence and collecting intelligence; it is how 
we think about this issue. So that is going to be a key 
element.
    And I have to say that DIA [Defense Intelligence Agency] 
has been gutted over the last several years, in terms of its 
work on Russia, because people have been redeployed from what 
would seem is not a priority area----
    Mr. Moulton. Right.
    Dr. Hill [continuing]. Onto other areas--the war on 
terrorism and elsewhere, which of course have been important. 
So we have to basically put resources behind our analysis 
again.
    Mr. Moulton. So quickly, Dr. Hill and Dr. Farkas, would you 
agree with Admiral Stavridis' admonishment that we should 
reexamine the pivot to Asia and to the Pacific?
    Dr. Hill. We definitely need a more holistic approach. When 
Putin gets up every day he thinks about the huge Russian 
landmass.
    He is not the head of a second-rate regional power; he is 
the head of a multiregional power. And we have to look at 
Russia in that context and our own global posture, as the 
admiral said.
    Mr. Moulton. And, Dr. Farkas, would you agree with that?
    Dr. Farkas. I would just say that we need to bear in mind 
now that Russia is the immediate threat. And so that probably 
does have some implications for the pivot.
    Mr. Moulton. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Admiral, I just gotta--what is your answer to Mr. Moulton's 
question about this conventional versus hybrid? There are some 
people who believe that ERI will make our allies feel better 
but it is not going to have any effect at all on Putin.
    Admiral Stavridis. I lean toward solutions that are cyber, 
special forces, unmanned vehicles. I think what is in the cusp 
between the two is a battlefield capability that is anti-armor, 
anti-tank.
    That kind of lethal, distributed force I think has a role 
to play that kind of falls in between the two categories. But I 
think a battalion, armor, heavy tanks I think is unlikely to be 
the solution there.
    The Chairman. Thank you.
    Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    And thank you, to the witnesses, for your thoughtful 
testimony.
    You testified earlier that despite the severe economic 
challenges that Russia faces, they have increased their defense 
spending by 25 percent in the last 2 years. Meanwhile, the U.S. 
has had continued discussions about defense sequestration, 
which unfortunately includes significant reductions in Army end 
strength.
    I want to look forward. As we are approaching a transition 
of administrations, what policy changes in our defense strategy 
do you think are needed to adequately counter Russia's recent 
changes in its national security strategy? I am particularly 
interested in Army end strength, in cyber, and also--you noted 
this before--reassessing the so-called pivot to Asia.
    Admiral Stavridis. I will start off. I am sure my 
colleagues have something to add.
    You mentioned a couple of things. I am a supporter of the 
recent Army future commission that has just come out, headed by 
my former colleague and very good friend, General Carter Ham. I 
think that is spot on and lays out the numbers, I think, 
appropriately. In very round numbers, I think an Army that is 
about a million is what is needed between Active, Reserve, and 
Guard.
    In terms of cyber, I think it is time to add significant 
capability and, in fact, to examine the question of whether or 
not the nation needs a cyber force. We have an Army, a Navy, an 
Air Force, a Coast Guard, a Marine Corps, et cetera. I think it 
is high time to think about a cyber force--small, a few 
thousand, but to grow.
    The analog would be the Air Force of 100 years ago, which 
didn't exist. But we gradually came to understand we needed 
one. I think that is a conversation that we need to be having 
now.
    I do think we will continue to see an emphasis on maritime 
and air activity globally.
    And in terms of the pivot, I want to make sure we are all 
on the same sheet of music here in that the world is big and 
global and complicated; there is no simple answer of, gee, we 
should pivot to Asia or not. We have global responsibilities.
    But what we have seen of late in Europe and in the Levant 
and the near Middle East causes me to think we ought to be 
reexamining a huge shift of forces to the Pacific.
    Thanks.
    Ms. Stefanik. Dr. Farkas.
    Dr. Farkas. Well, I have gotten to where I am today 
generally by agreeing with Admiral Stavridis, so I agree with 
everything that he said.
    And the only other thing I would point out in addition to 
my earlier comment about the base budget funding also a lot of 
these activities, the Deputy Secretary of Defense has this 
third offset and there is a slice of money that he is 
requesting also in this budget--in this upcoming--in this new 
budget request, which addresses critical capabilities that we 
need to develop so that we can stay ahead of our competitors, 
Russia and China specifically.
    And I would mention in that context that they are looking 
at--and I probably can't get into it too much more, but at 
cyber capabilities, cyber teams, and things like that. So there 
are other elements of the budget that do address the 
unconventional threat, as well.
    Ms. Stefanik. Dr. Hill.
    Dr. Hill. I think what we have to bear in mind, based on 
all the things that we have been talking about today, that 
whatever we do, we have to make sure that we have flexibility 
and adaptability in any of the mechanisms. Part of our problem 
is we tend to fixate on big budgets and big issues of doctrine, 
and often it makes it very difficult, then, for us to change 
course as circumstances change.
    I mean, this is the problem of being fixated on something 
like the pivot to Asia or, frankly, on, you know, thinking 
solely about the war on terrorism, or thinking of things in 
terms of old challenges.
    Russia may be the current and present threat, and Russia 
has actually never really changed its posture toward the United 
States. Instead of dealing with many of the other threats that 
also face Russia, frankly, the United States is not--let's be 
frank about it--Russia's main threat over the longer term.
    All the transnational threats that we are worried about 
Russia is, too. So we have to actually move in a direction in 
which we change that calculus for Russia also, so that they 
change their minds about thinking of us as a threat. That 
requires some pretty astute diplomacy, including by the 
Pentagon, not just by the State Department and our other 
interactions.
    And we have to make sure that we don't get ourselves 
fixated on just the nature of the threat as it is. So we need 
as many flexible mechanisms as possible, and we need to really 
think to ourselves about how we adapt, not pivot one way or the 
other.
    So we have to be very careful that whatever we do, as I 
think Admiral Stavridis and Dr. Farkas are saying, not to then 
fixate on Russia, the Middle East, and the Levant as well, so 
to have a holistic approach and figure out how everything will 
fit together.
    Ms. Stefanik. Thank you.
    My time is about to expire. I yield back.
    The Chairman. Thank you.
    Mr. Takai.
    Mr. Takai. Thank you, Mr. Chairman.
    Dr. Farkas, you have stated publicly that your support for 
defensive legal assistance in the Ukraine was not supported 
within the Department of Defense. How should the committee 
assess the Department's request to increase resources to deter 
Russia? Can you discuss the divergent views with the Department 
and the administration on U.S. policy towards Russia?
    Dr. Farkas. Thank you, Congressman, for your question.
    I think, as I mentioned in my written testimony and in my 
oral statement, that the countries around Russia's periphery, 
they have requested lethal defensive equipment, specifically 
anti-tank weapons, the Javelin system. And thus far, the 
administration has not seen the need to provide this equipment 
to those countries, but I believe that it would be an important 
potential deterrent to Russia. And again, because it is 
defensive in nature I don't believe that it would cause some 
kind of escalation dynamic that would be uncontrollable and 
lead to the United States getting drawn into the conflict in 
Ukraine.
    So I do believe strongly that we should make that system 
available to those countries.
    As far as the discussion about the Russia threat, I think 
you are hearing a chorus of voices, starting with, as I 
mentioned earlier, Secretary Carter, talking about the Russia 
threat, as well as Deputy Secretary Work, who has really rolled 
up his sleeves and has been actively pushing items in the 
budget for a while now to address the Russia threat.
    So I think you are hearing one strong voice coming out of 
the Department of the Defense and the administration writ 
large, but it is not the voice that matters. And in fact, 
sometimes if you talk too loudly you can--your strategy can 
backfire. It is more important what we do.
    And that is why I talked about across the board we don't 
need to get into a confrontational dynamic with Russia. And 
indeed, there are places where we need to talk to Russia. And I 
don't want to veer too far off your question topic, but on this 
strategic and some of the more dangerous elements of our 
relationship we actually have to reengage in the discussion.
    Mr. Takai. Okay. So, Dr. Farkas again, what lessons has the 
conflict in Ukraine taught us about our own shortfalls, and how 
would you--how would providing Ukraine with defensive legal 
assistance--you mentioned the Javelin--change the playing field 
on the ground in eastern Ukraine?
    Dr. Farkas. Well I think, Congressman, we covered a lot of 
the ways that we have learned. You know, we were quite shocked, 
first of all on the diplomatic front, that the Russian 
government took the fact that the Ukraine was interested in 
joining the European Union as such an assault on their foreign 
policy and that they reacted the way that they did, that they 
took the opportunity of--well, of the failed arrangement, where 
the Yanukovych, the president--the former president of Ukraine 
fled, and then--and they took that opportunity to go in and 
seize Crimea.
    I think the thing that hasn't been mentioned, or maybe not 
mentioned sufficiently, is intelligence. And again, I think I 
want to elaborate a little bit on what Dr. Hill said.
    I found it shocking in the administration--I mean, it 
wasn't shocking but it was disappointing. We have actually a 
lot of very good intelligence on Russia, but we do not have 
sufficient analysts; we do not have sufficient resources to get 
that information processed and get it out to the policymakers 
fast enough. And so I really believe that we need more analysts 
on the case.
    The other thing that we found was the lack of ISR 
[intelligence, surveillance, and reconnaissance]. I mean, this 
is--obviously this committee is dealing with that issue all the 
time in many different contexts, but we need more ISR for the 
U.S. European Command.
    Every interagency meeting we were in when we talked about 
what can we do, there was always this discussion of, ``Well, 
what is going on?'' And, you know, the satellite capability is 
one thing, but we really need to have the eyes on all the time. 
And so that is an area where I do believe we need to make sure 
that we have sufficient resources.
    And, of course, we could provide those resources to the 
Ukrainians, as well.
    Mr. Takai. Okay.
    Dr. Hill, is it fair to suggest that President Putin 
expects that the West will turn a blind eye to Russian 
aggression and continue to cooperate with Russia? And what do 
our allies and partners in the region need from the United 
States?
    Dr. Hill. I think that President Putin certainly did think 
that there was a strong possibility that we might turn a blind 
eye. This was one of his lessons that he took away from 
Georgia. He took the lack of a robust response to this as a 
sign that we weren't really serious.
    All of the questions that we are talking about today from 
our own perspective are questions that are being asked in 
Moscow about their own perspective, in terms of analysis and 
intelligence and their posture, all against--and against 
deterring us.
    Putin has been seeking to exploit as many fissures as 
possible between hers and our allies, and this is one area 
where I have something of a slight disagreement with Dr. Farkas 
about we have to be very careful when we are discussing support 
for Ukraine and elsewhere about keeping unity with our European 
allies. This is really a very key element about changing those 
expectations that we will get back to business as usual with 
Russia.
    Mr. Takai. Okay.
    My time is up, Mr. Chair. Thank you. Thank you very much.
    The Chairman. Thank you.
    Mr. Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman, and also the 
ranking member, for holding this important hearing.
    I am encouraged by the testimony today. It matches a lot of 
the analysis that myself and others have been doing here very 
recently.
    In fact, we are going to be introducing a bill this week 
that is surrounding the land forces and the need to stop the 
drawdown.
    Admiral, thank you for your comments as far as ensuring 
that we keep the land forces strong.
    Our bill will essentially stop this drawdown, keep the land 
forces about 1,000,035 for the Army in the total Army, and I 
think that is really important when you compare it to what the 
current plan is right now. The administration's intent is to go 
to 450,000 in the Active Army, 335,000 in the Army National 
Guard, and then under 200,000 in the Army Reserve, for a total 
of 977,000.
    Admiral, in your comments--and actually, to all the 
panelists--in your comments earlier I think you are making a 
strong case for deterrence and, in addition, mention about the 
armored brigade and the combat aviation brigade. In Europe I 
think that the current situation warrants that.
    But starting with you, Admiral, I would like you to comment 
on, first of all, if you have any general comments about our 
efforts. It is bipartisan. We are in double figures now. 
Sergeant Major Walls, I appreciate his support, and we have the 
support of chairman, which is very important.
    But I am interested to hear your comment even beyond 
homeland defense and deterrence, the criticality from your 
experience of the ability to strategically maneuver. And here I 
am talking about the joint global response force that we hope 
will send a message, once we fully restore it, in terms of 
helping us with course of diplomacy, and then how that CONOP 
[concept of operation] then develops into early-on forces, 
campaign forces, if necessary command and control, sustainment, 
consolidation of gains, and effective transition, which we have 
struggled with over the last 15 years, and how important 
keeping the land forces strong is to that particular CONOP.
    Admiral Stavridis. Happy to comment on that. And, you know, 
I wouldn't be doing my job as a retired admiral if I didn't say 
the words ``Marine Corps'' at this point. And I know you----
    Mr. Gibson. Absolutely. And that is in our bill, and----
    Admiral Stavridis. Absolutely. And I think I was happy to 
see their force levels remain strong in this budget that will 
be submitted to the committee and the Hill.
    I think the two need to fit together. And General Ham and I 
have had a lot of conversations about this, and this is where 
the ability to use the Marine Corps in and around that 
construct of the really heavy Army piece I think is critical to 
your bill. And that would be the piece of advice I would give 
is that it ought to be very holistic--it sounds like it is--in 
terms of integrating Marine efforts alongside the maritime and 
the air that have to go with it.
    Mr. Gibson. Appreciate that. In fact, just for 
clarification, the United States Marine Corps and Marine Corps 
Reserve are both contained inside this bill to stop the 
drawdown.
    Fully agree. In fact, my experience being an infantry 
commander, spent a lot of time with Marines, particularly in 
northern Iraq as we were on a flank with each other at Nineveh 
and Anbar Province.
    So, and then for the other panelists for comments on this?
    Dr. Farkas. Just very quickly if I could, and then I will 
turn it over to Dr. Hill, the--on the Marine Corps it is an 
excellent point that the admiral makes. The Department of 
Defense has relied heavily on the Black Sea Rotational Force in 
that area, the periphery area, and the NATO Balkan countries to 
provide important readiness training and also preparation for 
the Georgian forces to deploy with us to Afghanistan where, as 
you know, they are the number two troop contributor. So I do 
think the Marine Corps is an important component.
    And as I mentioned in my written statement, aside from 
mentioning the aviation brigade, I also think that we really 
need to keep an eye on readiness and end strength so that we 
don't end up having a hollow force because we are stretching 
the Army too thin.
    Dr. Hill. Just one very small point, which picks up on the 
truncated response to Congressman Takai, as well. It is very 
important, as Dr. Farkas has said, to keep our allies in mind 
here, and to also make sure that whatever we are doing is also 
complemented by our military interactions with them, as well, 
because part of the deterrent effect will be us working in 
lockstep, as we have in the past, with our NATO allies and 
other partners.
    And all of this interoperability, maneuverability of the 
forces overall is extremely important, as I think Admiral 
Stavridis has been making clear, as well.
    Mr. Gibson. Thank you, Mr. Chairman. Yield back.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Thank you.
    Some have attributed the increase in hybrid warfare across 
the globe to the inability of the West, specifically the U.S. 
and Europe, to find a way to integrate Russia and other rising 
powers, the BRIC nations, for instance--Brazil, India, and 
China, and Russia--the inability to find a way of integrating 
those rising powers into the international order. I am 
thinking--well, with that in mind, the extent to which 
countries like Russia are using grey zone campaigns to grab 
more influence and shift the terms of regional orders is not 
really surprising.
    Do you have any suggestions as to how we can provide a more 
shared sense of ownership and a greater stake in the 
international order or system so that rising powers will be 
inclined to shape international politics without resorting to 
grey zone aggression?
    Admiral Stavridis. I think that is a very interesting 
question, and I think its premise is roughly right, which is to 
say that part of why there is an increase in grey zone activity 
or hybrid warfare, or here I would really, Congressman, use the 
term ``asymmetric warfare,'' is partly--of exclusion from 
normal mechanisms. It is also, however, attributable to 
technology.
    In other words, tools are available in cyber, in social 
networks, in information, that allow smaller, less-advantaged 
groups to engage in these kind of activities. So it is a 
combination of the two things.
    It is interesting you mention the BRICs because I think 
these are extraordinarily different cases. Brazil is a mega-
power which I do not think feels excluded from the 
international order but suffers from a great deal of internal 
challenges economically. With Brazil I think the prescription 
is to engage them fully using economic leverage to pull them 
into the global system.
    India I think represents our best potential partner going 
forward in this century. I think a U.S.-Indian relationship is 
one that will be critically important, and here we have to 
listen, pay more attention, have more exercises, more 
engagement with our Indian colleagues.
    I think we are actually managing the rise of China 
reasonably well. And you see China engaging in relatively 
responsible ways in the international order.
    It is really Russia that is the outlier here.
    And I do want to pick up on your point, which is to say 
that all the things we have talked about today, which are 
confrontational with Russia, must include a component of 
collaboration, of dialogue. We can't afford to stumble backward 
into a Cold War.
    We should cooperate where we can. We should confront where 
we must. And I think if we use that combination of deterrence, 
hard power, and soft power tools, that is our best bet at 
precluding a future of truly open conflict with Russia.
    It is a very good question. Thank you.
    Mr. Johnson. Thank you.
    Dr. Farkas.
    Dr. Farkas. Thank you for the excellent question, actually.
    I mean, I think one answer is, of course, to be more 
inclusive, perhaps, in the institutional context, so I am 
thinking of U.N. Security Council, et cetera. These are items 
that have been up for discussion for a long time, looking at 
the composition of that council.
    But I think otherwise, as the admiral said, it is really 
Russia that is the problem, and the type of means that they are 
using in order to assert themselves. So it is not that we 
oppose Russia having a special role in its periphery or in 
Europe writ large, or that we think Russia must become a member 
of every club that we are in rather than counterbalance us 
politically. It is the means that they are using that is 
problematic for us.
    And so how to get them to not use those means is really the 
subject of my testimony, whereby what I think we need to do is 
demonstrate to them that those means won't work. And that is 
sort of the shortest answer I can give you.
    Mr. Johnson. All right.
    And, Dr. Hill, I wish I could hear from you on that point. 
But let me ask you this: What sort of relationship do you 
believe Putin is looking for with the West?
    Dr. Hill. Actually, Putin is looking for the relationship 
with the West that you outlined in really what was an excellent 
question. He wants to be one of the chairmen of the board. I 
mean, he wants to be in the same kind of arrangement that 
Russia thinks that it has on the U.N. Security Council, which 
is, you know, having basically a say in the global agenda and a 
right to veto things that it doesn't like.
    And the focal point right now has been in Europe and the 
European security order, but also now in the Middle East, where 
Russia sees the order breaking down. What we have to be able to 
do is kind of articulate a broader vision for Russia of seeing 
that the methods that they are using in Europe and the Middle 
East will actually be counterproductive for Russia in a much 
more global perspective.
    Russia has key interests in the Asia-Pacific. We have 
already mentioned the Arctic. And Russia is actually vulnerable 
in both of those theaters, and it is also vulnerable, frankly, 
in Central Asia, which is another area of its traditional 
interest.
    So we have to articulate a sense that if Russia wants to be 
on the board with the rest of us then it has to play by rules 
that we all generally share, including, frankly, China. We have 
to engage Russia in different theaters and to show that there 
is actually an alternative way of getting of our attention and 
of being there present when we are discussing new rules of the 
game.
    So this is a real challenge. It is a diplomatic challenge, 
but I think it also requires a showing from the military 
perspective that we are talking about today that we mean 
business and that we will not accept those methods.
    And it is also important because the rest of the BRICs are 
watching. China, India, you know, all the other rising powers 
are trying to see how we handle this relationship with Russia. 
So we should think about this crisis as a test not just for 
Russia, but for how we want to set the tone for future 
engagements internationally.
    Mr. Johnson. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Dr. Farkas, you talked about Russia being the most 
immediate threat to the United States, and I think you and the 
admiral both touched on the question of whether or not we 
should be focusing resources on the Asia-Pacific or shifting 
that back towards the East.
    And I am wondering if you can comment on the seeming 
conflict between the statements that you are making versus 
those we hear from others within defense, especially with 
regard to North Korea being our number one threat, especially 
given the provocations that we have seen from them with the 
missile tests, the nuclear tests, their increased capabilities, 
the effect that that is having on the region, South Korea 
looking to increase its missile defense capability with our 
help, the changing and growing dynamic in the Asia-Pacific 
region, and the list goes on and on.
    Obviously, being from Hawaii, my home State feels very 
directly the threat every time North Korea launches a missile 
test, conducts a nuclear test, recognizing that within their 
current capabilities we fall significantly within range. So I 
wonder if you can argue that point on why you are right and 
those who say that North Korea is our number one threat are 
wrong.
    Dr. Farkas. Thank you very much for the question. I worked, 
as I mentioned earlier, for the Senate Armed Services Committee 
and worked very hard and aggressively for Senator Levin, at the 
time, on North Korea. And in fact, in 2008 I went to North 
Korea, went to Yongbyon.
    So I agree with you 100 percent, the threat from North 
Korea is serious and we need to be addressing it. But I don't 
think that it is at the same level as the threat that we are 
seeing from Russia right now in terms of the potential dangers 
we face with Russia.
    The capabilities that the Russian Federation has far 
surpass the capabilities of the North Korean regime, and I 
think that we have the means to respond, you know--we have the 
means to respond to both, but I think that to respond to Russia 
requires a bigger undertaking.
    So I hate, though, to rank----
    Ms. Gabbard. Yes.
    Dr. Farkas [continuing]. Threats. You know, they are both 
threats and--but I emphasize the Russian one because it is here 
and now, it is in our face. We really need to understand it 
because there is a real danger that if we don't stand firm 
against Putin he will take the opportunity to use military 
force again, as he did in Georgia, as he did in Ukraine, even 
before that in Moldova, as he did in Syria.
    He will be tempted to use it again, and of course, the 
worst case for us would be if he used it against a NATO ally 
or, of course, God forbid, against us, although I don't--in 
both cases I don't think it is probable, but it is still, for 
the Department of Defense, obviously prudent to worry about the 
worst-case scenario.
    Ms. Gabbard. Yes.
    Dr. Farkas. So I think that is the worst-case scenario, but 
clearly I don't mean to say that the North Korean threat is not 
important, and we need to focus on that, as well. We can't pick 
among--you know, we can't pick, and I think the ranking thing 
is a little bit overdone----
    Ms. Gabbard. Yes.
    Dr. Farkas [continuing]. Because, of course, terrorism is 
the immediate and urgent.
    Ms. Gabbard. No, I agree.
    Dr. Farkas. And for the Europeans, terrorism and 
immigration. So----
    Ms. Gabbard. Yes.
    Dr. Farkas [continuing]. The admiral perhaps would----
    Admiral Stavridis. I would only add to that, I have written 
extensively and have said that North Korea is the most 
dangerous country in the world, and I think they are in a 
tactical sense. I think Russia, because of its throw weight and 
its strategic play, represents a significant strategic 
challenge for the United States, if that helps how we 
articulate it.
    But I would not in any way understate the risks on the 
Korean Peninsula in particular.
    Ms. Gabbard. Thank you.
    Thank you both.
    Dr. Hill, building a little bit off of that, and also 
something you said earlier about how the U.S. and Russia are, 
quote, ``on a long-term collision course,'' in particular as it 
relates to Syria. I am just wondering if you can expand on that 
a little bit and why you believe that is the case.
    Dr. Hill. In the case of Syria, Russia has very 
longstanding interests. This is a relationship that dates back 
to the Soviet era.
    The relationship preceded Bashar al-Assad's; it was a 
relationship that Russia also established with his father. They 
are very interested in propping up the regime and also keeping 
the state of Syria together.
    This is not a sideshow for Russia. It is actually a 
domestic foreign policy issue.
    Russia has exactly the same concerns as all of the other 
neighboring states do and European states about the influence 
of extremism on its domestic politics. Russia has the largest 
indigenous Muslim population of any European country, and we do 
think of Russia as a European country; and Moscow has the 
largest Muslim population in its capital. This is an indigenous 
Russian population.
    The Russian government have recently stated that they are 
following 2,800 foreign fighters from Russia in Syria. There 
are foreign fighters from the neighboring countries in Central 
Asia and the Caucasus.
    So Russia has, you know, all the questions that we have 
about the future of Syria, and they believe that keeping the 
Syrian state together with someone like Assad, a strongman at 
the head, is the best solution for them.
    We have been on a collision course because obviously we 
have not had the same starting point. We have the same end 
point of wanting to keep some semblance of the Syrian state 
together, but we did not want to begin with Assad.
    So Russia has, as we have been discussing today, decided to 
use their military as a blunt instrument in foreign policy to 
force us to start from the same point as Russia has in 
determining the future of Syria.
    Ms. Gabbard. Thank you. I agree with your assessment of 
that and remain concerned about this head-to-head collision 
path that we are on between the U.S. and Russia, specifically 
because of that difference and those diametrically opposed 
objectives in Syria.
    Thank you.
    The Chairman. So do you think it is possible for the U.S. 
and Russia to reach a, quote-unquote, ``acceptable agreement'' 
on Syria?
    Dr. Hill. I actually do. I think it will take a lot of 
work, however, because it is--as we have been saying all the 
way along, this is not a two-way game. It is not between the 
U.S. and Russia by any stretch of the imagination.
    Russia has differences not just with the United States but 
with Turkey, which it very clearly expressed now on very risky 
and very dangerous terms. Russia has a difference of opinion 
with Saudi Arabia, with Qatar and other Gulf States.
    And frankly, Russia also has a difference of opinion with 
Iran. We have to be very careful here to make sure that we are 
clear that Russia has not jumped into the sectarian divide in 
the Middle East by any stretch.
    Russia's Muslim population are predominantly Sunni, but it 
also does have a Shia population inside of its own territory 
and on its periphery. And Russia doesn't want to be part of a 
religious war; it wants to actually stop these.
    Russia wants to see some kind of new balance of power in 
the Middle East. It doesn't want to see Iran actually get the 
upper hand over other Middle East players, either.
    So in many respects, Russia and the United States are on 
very much the same page. We want stability; we want a new order 
in the Middle East. We want to actually protect some of the 
same regional players.
    Russia is just as concerned about the fate of Israel as we 
are now. It is a very different relationship with Israel than 
it was during the Cold War for Russia. It is a very important 
bilateral relationship.
    So there are a lot of things that we can talk about here. 
We just have to get away from the idea that it is just a 
collision between the two of us over actually a country that we 
don't have any intrinsic interest in owning.
    Russia does not want to own Syria as a protectorate. It 
wants to eventually get out of Syria, maintaining its base and 
other interests there, but to see an order emerging around 
Syria and the Middle East.
    So I do think that we can do this. We just have to be 
clear-headed and do our homework.
    Admiral Stavridis. May I add a comment, which is I agree we 
can get to a diplomatic solution, but it will require us 
accepting Assad for some period of time, which will be 
difficult to swallow, given his level of atrocity against his 
own people. I take some comfort from the fact that in the 
Balkans we had to cut a similar deal. Milosevic stayed in 
power, and in the end Milosevic died in a jail cell in The 
Hague.
    But we will get there diplomatically. It will require us to 
take a hard swallow on Assad.
    The Chairman. Okay.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    And to the three witnesses, thank you for your very 
balanced assessment of the situation, particularly your desire 
to share with us what appears to be, in my view, trying to 
understand Russia, to look at the situation from the Russian 
perspective so that we have a better ability to decide what we 
want to do. I very much appreciate that.
    There is a whole series of issues. In fact, I would like to 
pull you aside and share 10 gallons of coffee with you over the 
next 10 days.
    A couple of issues: One, it seems to me the ambiguity that 
NATO presently has with regard to little green men in the 
Baltics is troublesome. So if you could speak to that, should 
we not be clear as to what precisely would be a NATO incursion?
    Admiral Stavridis. Thank you, sir.
    We talked a bit earlier about Article 5 and then the 
definition of an attack, which is Article 6, and the way 
warfare has changed and morphed. I think because of what has 
occurred in Ukraine, NATO is much more on alert, will work much 
harder to identify through intelligence, surveillance, 
reconnaissance activities.
    And I think, frankly, I wouldn't want to speak for the 
Baltic States, but I am assured they would take a very 
aggressive posture, and I think they would immediately use 
lethal force. And I think that would be a salutary effect. So I 
think NATO has moved in its direction.
    I agree we should do this over 10 gallons of vodka.
    [Laughter.]
    Mr. Garamendi. Well, that would terminate conversation for 
sure.
    Any further comments about should we be ambiguous about 
this or should we be clear as to what a threat really is?
    Dr. Farkas. Yes. The admiral just whispered, ``Clear.'' And 
I think we, yes, clear. I mean, that is what the--our Baltic 
allies would like, and that is what we owe to--owe them.
    We are, as I mentioned earlier, doing a lot of work with 
our special operations forces. We need to do more, though, to 
help law enforcement in the Baltic countries, and also the 
Balkan countries, Romania and Bulgaria.
    Mr. Garamendi. I am going to say thank you for that, but it 
seems to me we need clarity as to what is an incursion, what is 
an attack. Any ambiguity will lead to, I think, a very 
difficult situation.
    So I got two other things.
    You talked about cyber warfare. What agency in the United 
States government is responsible for a cyberattack on the 
United States?
    Admiral Stavridis. This is a confused situation in our 
government. I will give you kind of two answers to it and throw 
in a third.
    The Department of Homeland Security is broadly responsible. 
The National Security Agency, which is part of the Department 
of Defense, provides the tool sets and, I would argue, will be 
where this response will occur. And the Department of Defense 
has a specific set of responsibilities to protect military 
capabilities, notably our strategic nuclear systems.
    So that is just the beginning, and we would probably need 
20 gallons of vodka to really get through the cyber structure 
in the government, but this is an area that I think this 
committee could profitably spend a great deal of time 
examining.
    Mr. Garamendi. I asked the question for a specific reason, 
which is everybody is responsible and, therefore, nobody has--
--
    Admiral Stavridis. Nobody is accountable as a result.
    Mr. Garamendi. Mr. Chairman, we need to deal with this. We 
are talking about a foreign cyberattack.
    I noticed that the budget has a whole lot more money for 
cybersecurity, which I think they mean how to protect our 
databases. I think there is something far, far beyond that that 
we need to address, and that is why would anybody that wants to 
do harm to the United States spend all their on building a 
nuclear weapon for an EMP attack when you can simply hire a 
bunch of teenagers and take down the entire grid system, the 
electrical grid system in the United States?
    Admiral Stavridis. You are right to emphasize the grid. Of 
all the things that are vulnerable--financial, health, 
military--the segment that is most vulnerable is our grid 
system.
    Mr. Garamendi. Thirty-six seconds: Why are we engaging in a 
new nuclear arms race that will cost us $1 trillion?
    Admiral Stavridis. The short answer is, in the 24 seconds, 
because Russia is expanding their modernization capability with 
an enormous focus on nuclear weapons and they have a leader who 
frequently mentions that we should not forget that they have 
nuclear weapons. I think it is, unfortunately, a necessity for 
us.
    Mr. Garamendi. Agreement from the----
    Dr. Farkas. I would agree with that. I mean, we have to 
deter Russia.
    Mr. Garamendi. And we need to do that by spending $1 
trillion on an entire new system?
    Dr. Farkas. Well, I am not going to argue about the dollar 
amount, but I do think we need to keep our force modernized so 
that we can continue to deter Russia. As the admiral said, 
unfortunately that is the reality.
    Dr. Hill. We also need to find a way of pushing back to 
arms control discussions, particularly as we reach next year 
and the 30th anniversary of the Gorbachev-Reagan summitry. 
Perhaps we need, you know, to channel the cooler heads of that 
period, as well, and----
    Mr. Garamendi. So there may be another path available to 
us?
    Dr. Hill. There may be. Correct.
    Mr. Garamendi. I thought so. Thank you.
    Mr. Chairman, thank you.
    The Chairman. I am going to prevail upon you all for just a 
couple more questions hopefully.
    Dr. Hill, I gotta ask you about this: A line of argument is 
that Putin wanted to cooperate with us until the Balkans 
happened and we bombed, you know, Syria, and we didn't listen 
to him on a couple other things and then he went off in a 
completely different direction. Is that true, or has he always 
been who we see today?
    Dr. Hill. I think it is the problem of understanding other 
people's threat perceptions and the environment in which they 
operate. I think it was always a very hard sell to persuade 
someone like Putin and the people around him that, you know, we 
actually meant well towards Russia.
    This is somebody who was trained in a Cold War environment 
to be deeply suspicious about the United States. I don't think 
he is actually in any way intrinsically anti-American, but he 
is always deeply suspicious of threats to Russia.
    And the way that he has interpreted and read world events, 
based on information that is being passed to him and also his 
own worldview and perspective, is that beginning, frankly, in 
2003, with the U.S. invasion of Iraq--it isn't really to do 
necessarily with the Balkans--that we, the United States, have 
been in the business of regime change. And based on what he and 
others saw in the Balkans in the 1990s, that Admiral Stavridis 
is referring to, that we might eventually get around to him and 
to Russia.
    Back in 1999--and I can say this with good authority 
because I was actually in Russia during the NATO bombing--
across the whole spectrum of the Russian political system 
people believed that if NATO could bomb Belgrade that meant 
NATO could bomb Moscow. We might think that is preposterous; 
that was their threat perception.
    And since then, Putin and the people around him have talked 
themselves into seeing that everything that we do fits into 
that frame. And it has really been--the pivotal point was the 
protests in Russia in 2011, 2012, where we laughed this off 
when Putin claimed that the State Department had been behind 
the protest, that the protestors were being paid for by U.S. 
nongovernmental organizations, but he firmly believed it.
    Again, he believes that we have continued with active 
measures since the Cold War, that we have never stepped back.
    The Chairman. Okay.
    Dr. Hill. And so the problem has been how to persuade 
someone who thinks like that that in actual fact this is not 
the case. So that is the challenge that we have had.
    The Chairman. And he has some sort of--or those people 
around him have some sort of self-interest to perpetuate this 
myth. Of course, one of the things that we have not talked 
about today is the use of assassination, which has also been in 
the news here recently.
    I would like to broaden out for a just a second and ask 
each of you to address this.
    And actually it is based on an article, Dr. Farkas, you had 
that Putin is trying to rewrite the international rules because 
he sees the international order since the end of World War II 
as being developed by us for us. And so part of what is going 
on here is not just promoting strategic interests in this or 
that place, but a fundamental rewrite of the international 
order so it can be more to their advantage.
    Now, we hear the same thing on the Chinese, by the way. But 
if you would start and just address this briefly, if you could, 
this attempt not just to, again, protect their interests, but 
to change the whole ballgame.
    Dr. Farkas. Thank you very much, Congressman--or Mr. 
Chairman.
    Unfortunately, Putin is trying to rewrite the rules, and 
that is precisely the problem that we have. The means that he 
uses run counter to the rules.
    So in his belief system he believes that minority rights 
allow him to go in and seize territory, so to take territory in 
Georgia--you know, he is occupying 20 percent of Georgia right 
now; to go into Ukraine and take Crimea, and then do the 
military operations that he is conducting right now in the 
East.
    So in his view, he has the right to intervene in order to 
protect those Russians, and Dr. Hill mentioned that as well, 
the ethnic Russians.
    He also would like to prevent us from intervening in order 
to support peaceful transitions or not-so-peaceful transitions 
from autocratic, despotic rulers to democratic systems. So the 
Arab Springs, for example--the Arab Spring--I mean, you can 
take Tunisia, you can name any of them, but he was absolutely 
opposed to any kind of outside intervention and he perceived 
them as being on the--in the same model as the Iraq 
intervention, where we intervened and we got rid of Saddam 
Hussein.
    His view is he wants to intervene in order to protect the 
dictator, in order to keep the Saddam Hussein or the Bashar al-
Assad in power. So it is a different understanding----
    The Chairman. Because that is a way of protecting himself.
    Dr. Farkas. Right. And it is a different understanding of 
the balance between sovereignty and human and minority rights 
that we have had since the Second World War.
    Admiral Stavridis. Can I just add to that, Mr. Chairman, 
one thing we haven't touched on greatly is domestic political 
concerns for Mr. Putin. And I don't need to tell a committee of 
politicians that that matters pretty deeply how you are 
perceived, where your power base comes from.
    And so much of his appeal to the Russian people is tied 
into this idea of himself as a strong man. If you look at 
Russian history, they roll the cosmic dice: One time they get 
Ivan the Terrible, the next they get Peter the Great; one time 
they get Stalin, then they get a Gorbachev.
    The dice have landed definitively on Putin. He will 
continue to play that strongman card. He has got to win. He has 
got to be seen as winning and he has to be seen as capable of 
pulling these levers of power. It is fundamental to who he is 
domestically as well as all of the geopolitical points we have 
talked about today.
    The Chairman. And, Dr. Hill, in your comments also--one of 
you all mentioned earlier, I noted, ``deflect public 
attention.'' Part of the reason he is more aggressive is to 
distract people. Again, an argument that is made about China, 
as well.
    So if you could address this change the international order 
question?
    Dr. Hill. Yes. Changing the international order is very 
much on the agenda for Putin and the team around him in Russia. 
I mean, I think, you know, as Dr. Farkas has been saying, there 
has been a very strong consensus in Russia--and I would say it 
actually has been since 1999 and the NATO bombing of Belgrade--
that the order is not working for them and that there needs to 
be some way of wresting a veto out of the international system, 
particularly in Europe, for Russia to block things that it does 
not like.
    In terms of the internal political situation in Russia now, 
Putin is actually in a more precarious position than he might 
have seemed from the perspective of his ratings. We are talking 
about 88 to 90 percent in public opinion.
    Some of this is real. It is based on Putin's long record as 
a Russian leader since 2000. I mean, he really has had a lot of 
signature achievements, especially in the economy and in terms 
of stability in the political system.
    The cosmic dice actually seem to have rolled in a--into a 
good place, as far as most Russians are concerned, and we 
should be really well aware of that.
    The problem is--and it is one that perhaps other 
politicians would envy--that there is no political alternative. 
And that is risky because the only alternative to Putin is 
Putin-in-the-past. All of his ratings depend on how he 
performed prior to that opinion poll being taken.
    And in the past Putin was actually seen to be lacking at 
different points. There would be a crisis and his ratings would 
fall.
    If you look at the ratings of the political system of the 
Russian government and of the performance of the Russian 
economy and the state outside of Putin's performance, you see a 
very different picture. Russians are not happy with the way 
that their country is being governed.
    So Putin is the ultimate populist figure right now. He has 
to at all times appear to be in charge and in control. That is 
something I guess we are all familiar with in many other 
settings.
    So this is Putin's challenge: He has to show that if the 
economy is failing that someone else is to blame. It is the 
United States; it is Western sanctions. And he is putting all 
of the spotlight onto military victories in Syria and in 
Ukraine and onto being the big international player.
    The period when we are all bemoaning a lack of 
international leadership, Putin is trying to demonstrate it. It 
is not in the way that we would like, but it is now very 
important for his own validation, legitimacy, and ratings at 
home in Russia.
    The Chairman. Okay.
    Let me ask one other thing: Admiral Stavridis, at the end 
of your written statement you say, ``We prevail by outthinking 
our opponents.''
    Give us a grade. How are we doing at outthinking our 
opponents?
    Admiral Stavridis. In the case of Russia, B-minus at best.
    What I was trying to get at there, Mr. Chairman, was not 
only the topics we have talked about today, but also using our 
ability to learn and understand the history, the culture, the 
language. We need to be capable of reaching across a divide 
like this, and that requires real intellectual capital--
scholars, students, analysts. We have touched on that a bit.
    We have volumes of data about Russia but we are not very 
good at understanding and analyzing it. And oh, by the way, if 
you really want to understand Russia go easy on the CIA 
[Central Intelligence Agency] reporting; go back to reading 
Dostoyevsky, and Tolstoy, and Lermontov, and Pushkin, and the 
great Russian writers. They tell us a lot about the situation 
we face today. That is what I was getting at in that----
    Mr. Garamendi. Can we bring on the coffee and keep going?
    [Laughter.]
    The Chairman. Charles Hill wrote a book about understanding 
opponents based on its literature, which is what--but let me 
just take subset of the question to our responsibilities. Part 
of what we are trying to do is promote some reforms to help the 
Department of Defense be more agile in a very complex world. A 
lot of that is the thinking that goes on within the military.
    If you were to put a couple items on our agenda to consider 
when it comes to improving the intellectual agility of our 
military, what would you have on that list?
    Admiral Stavridis. Not speaking specifically to Russia, 
which I addressed a moment ago--yes, very broadly I would say 
we need to continue to put an emphasis on graduate education. 
And I say that with a certain amount of self-servingness, as 
the dean of a graduate school of international relations, but 
continuing to put emphasis, as Ike Skelton, who is over your 
left shoulder right there, built into this committee a sense of 
how can we educate our future leaders in the military. And that 
ought to happen at every level.
    If you want a practical proposal I would say take a look at 
the National Defense University and ask the question of why is 
that not a capstone to which all the service war colleges 
report and build a structure that definitively puts education 
on the agenda where Chairman Skelton believed it should be? I 
think it still is taking some hits if not below the waterline 
then pretty close to it.
    The Chairman. Okay. That is helpful.
    And Mr. Garamendi is right. We are going to need more 
coffee to finish these.
    Mr. Aguilar.
    Mr. Aguilar. I don't want to stand in the way of the 
chairman and the panel having lunch either, so I will be very 
cautious here.
    I did want to pick up on the theme of aggression.
    And, Dr. Hill, you just talked about Syria, as well.
    At this moment Russian-backed Syrian forces are working to 
encircle the rebel-held parts of Aleppo. Assad is on the cusp 
of a major victory and thousands of civilians are fleeing.
    There is a serious concern that those in the city will stay 
and be cut off from food and other types of foreign aid. 
Because of the Russian aggression and interference, we are on 
the cusp of another siege in a heavily populated Syrian city.
    With Russia playing such a large role in this offensive, 
what would you recommend be done to counter the crisis, if 
anything? And do you think--what do you think are the 
implications of this offensive on our efforts to counter Russia 
in the future?
    Dr. Hill. I think part of our problem is that it is not 
just a military issue here; it is--there is a certain 
psychological element to this.
    Putin and the people around him have been engaged in 
similar military operations not just in their periphery, in 
Georgia and Ukraine, but within their own territory in 
Chechnya. And if you look back to two wars in Chechnya, 
beginning in 1994 and the Russian Federation, you can see a 
very clear focus on basically pursuing a goal no matter what to 
preserve the state.
    And Putin, I think, looks at Assad and sees Assad as being 
in the same situation that he, Vladimir Putin, was when he came 
into office in 2000, when the war on Chechnya had erupted 
again. And Putin was determined, no matter what the 
consequences were in terms of civilian casualties or the 
destruction of Chechnya's capital city, Grozny, to prevail.
    So Putin is pushing his forces behind Assad to make sure 
that Assad prevails. So I am afraid the civilian casualties are 
not really factoring into this in an operational way.
    So we have to figure out how to engage with Russia not just 
in military ways but to change that psychology, to show that in 
some respects this will have consequences for Russia as well, 
in the way that it is viewed in the Middle East and in the way 
that it is viewed more globally. Because Russia now believes 
that the refugee problem and the civilian crisis are somebody 
else's problem: They are Turkey's problem; they are Lebanon's 
problem; they are Jordan's problem; and they are now Europe's 
problem.
    And that is not something that they are going to step away 
from. If they are exposing that problem, that is not theirs to 
deal with.
    We have to show that civilian casualties actually matter 
and that the broader psychology of this war will be very 
detrimental to Russia in the longer term, that they need to 
rethink the way that they are pursuing this.
    Dr. Farkas. If I could just add to that, as I said in my 
opening comments, I think, unfortunately, we have to do more 
militarily to support the Syrian opposition and work with our 
allies. And Secretary Carter is trying to do that right now, 
get some more, you know, metal into the game, if you will.
    As Dr. Hill mentioned, it is not just a military problem. 
And ultimately what we need against Russia is leverage.
    So if we can get it on the battlefield, great. If we can't 
get it only through military means, which I think is probably 
the case, we should look at other measures.
    So can we come up with a package of sanctions that we can 
implement with our Middle Eastern allies and partners against 
Russia? Because right now we have sanctions where we are 
sanctioning Russia in the Ukraine context, but perhaps there is 
something we can do to signal to Russia that what they are 
doing in Syria, their--the way they are waging the war, the 
disingenuousness, you know, saying they are going after ISIS 
[Islamic State of Iraq and Syria] when they are not, the type 
of bombs they are using, the civilian casualties, et cetera--
that that is unacceptable.
    But we need to be looking for leverage, ultimately.
    Admiral Stavridis. I would only add that we have a couple 
unpalatable futures ahead if we are going to solve this 
diplomatically. One I have mentioned already, which is I think 
we are going to have to accept Assad for some period of time.
    The second one, which we haven't touched on, is a partition 
of Syria. I think that increasingly that may be part of the 
solution.
    That sounds quite unthinkable, but if you look back on the 
Balkans 20 years ago you saw Yugoslavia break apart--really 30 
years ago--erupt in war 20 years ago, and ultimately those 
problems were solved by partitioning, by accepting Milosevic 
for a period of time, and by working with the United States, 
with NATO, and with Russia collectively. I think there are some 
lessons there from history looking at the Balkans that may have 
to be applied.
    No one is going to walk away a complete winner from this 
process.
    Mr. Aguilar. Thank you.
    I will yield back, Mr. Chairman.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thanks for your testimony.
    Admiral Stavridis, it is good to see you again. I have a 
couple questions for you.
    The first is as we talk about, you know, budget-saving and 
downsizing all the time here, oftentimes a target is 
headquarter staff. There is discussion of bloated headquarters.
    And having worked at a COCOM [combatant command], I see 
some value in the COCOM staff. And so I just wanted to ask for 
you to, you know, just share your perspectives on how important 
it is to have the right size of a staff at the COCOM so that 
they are not an obvious target, because if we, you know, if we 
get too small in those areas then there are capabilities that 
are just not going to happen.
    And if you also have a comment on EUCOM [U.S. European 
Command] separate from AFRICOM [U.S. Africa Command], because I 
think that is something that gets talked about, you know, 
having 92 countries in your responsibility versus having that 
peeled off where you can really focus on the challenges you 
have all mentioned today. That is just my first question to 
you.
    Admiral Stavridis. Sure. First of all, great to see you, as 
well, and thanks for your service on our EUCOM staff.
    I think that the process of rightsizing our staffs is 
something that has to go on consistently. There has been an 
enormous growth in staffs, broadly speaking, over the last 20 
years, including the Department of Defense, the NSC [National 
Security Council] staff, and, of course, right here on Capitol 
Hill. It strikes me as we are in a world of rapid-moving 
information and technology we ought to be able to do some level 
of consolidation.
    Having said that, I believe in the COCOM model, the 
combatant command model. I think it makes a great deal of sense 
and it allows us to have the kind of regional specialization 
that I think is crucial.
    Whether or not EUCOM and AFRICOM ought to be remerged, I 
think at the moment that probably is not a good idea. It is 
worth examining that.
    More profitably, perhaps looking at NORTHCOM [U.S. Northern 
Command] and SOUTHCOM [U.S. Southern Command], there might be 
some synergies there that could be addressed. You could also 
look at TRANSCOM [U.S. Transportation Command] and DLA [Defense 
Logistics Agency].
    So I think there are areas where mergers would make some 
sense. I wouldn't at this minute advocate one between EUCOM and 
AFRICOM.
    I do think we need to put downward pressure on staffs, but 
we need to do it in an informed way.
    Ms. McSally. Great. Thank you.
    I know you talked about in your testimony about moving Army 
forces out of Europe and how that has not been ideal, but we 
have also moved some air forces out of Europe, as well. You 
know, 81st Fighter Squadron closed down. First time we didn't 
have A-10s in Europe in decades. But now we are deploying them 
back to Europe, which I am guessing is probably more costly for 
us to do that.
    So could you comment about the importance of our air assets 
there for deterrence and training, as well?
    Admiral Stavridis. Sure. And you mentioned the A-10. I 
think, like a lot of people currently in uniform, I also am an 
A-10 fan. I think they are a simple, workable answer, and I 
think in a European context could be extremely important if we 
really went to the dark end of the spectrum. Certainly they 
could be useful in many other areas.
    I also am a big fan of special forces aircraft in Europe. 
We are moving, as you know, some of the V-22s in.
    At the end of the day, the good news about airplanes is you 
can fly them and they can move and they can come in. But there 
is a real power in having them present that allows you to deter 
and, again, at the dark end of the spectrum, conduct 
significant operations.
    So as I mentioned on land forces, I would also echo we 
ought to be looking again at cuts in the European theater on 
the air side.
    Ms. McSally. Great. Thanks.
    And last quick question, again in the budget pressures we 
are all often focused on making sure we have hard military 
power, but there is the soft engagement, which I believe is 
also valuable. And I was a professor at the Marshall Center, as 
you may know, and so I just, again, as the former SACEUR 
[Supreme Allied Commander Europe], can you just comment on the 
value of the Marshall Center and how that is important for the 
European theater and dealing with potential Russian aggression?
    Admiral Stavridis. I can. Marshall Center Garmisch is an 
iconic example of what we talked about a moment ago that 
Chairman Skelton built into the system, which is education as a 
tool of national power that goes alongside it. It is where we 
create soft power; it is how we learn how to use hard power.
    Not only the Marshall Center, but really all of these 
regional centers, which are a pittance in the big scheme of 
things, I think are extraordinarily valuable to the Department 
and to the nation.
    Ms. McSally. Do you have any ideas--there have been 
discussions of consolidation of some of those centers. Do you 
have any perspective on that----
    Admiral Stavridis. I think the budget savings are so 
miniscule that that probably does not make a great deal of 
sense.
    Ms. McSally. Great. Thanks.
    And I yield back, Mr. Chairman. Thanks so much.
    The Chairman. This has been very helpful, and I am very 
grateful to each of you for sharing your expertise with us 
today in some very complex, difficult issues that the country 
faces.
    So the hearing stands adjourned.
    [Whereupon, at 12:11 p.m., the committee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                           February 10, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 10, 2016

=======================================================================

      

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 10, 2016

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. GARAMENDI

    Mr. Garamendi. In your spoken testimony, you stated that 
``unfortunately'' the United States must modernize its nuclear forces 
to counter Russia's new emphasis on tactical nuclear weapons, its 
nuclear ``first use'' policy, and its doctrine of ``escalate to 
deescalate.'' Which specific U.S. nuclear weapons systems do you 
believe must be modernized? What specific roles would each system play 
in deterring a Russian threat to NATO? To the extent that these roles 
are currently played by lower-yield U.S. nuclear weapons such as 
nuclear gravity bombs and nuclear cruise missiles, which could 
potentially be met with advanced conventional systems, such as 
hypersonic weapons and advanced, conventional cruise missiles?
    Dr. Farkas. Given the Russian nuclear modernization, their 
doctrine, verbal saber-rattling and violation of the Intermediate 
Nuclear Forces Treaty, the United States must ensure that our nuclear 
deterrence is robust and effective.
    Mr. Garamendi. In your spoken testimony, you stated that 
``unfortunately'' the United States must modernize its nuclear forces 
to counter Russia's new emphasis on tactical nuclear weapons, its 
nuclear ``first use'' policy, and its doctrine of ``escalate to 
deescalate.'' Which specific U.S. nuclear weapons systems do you 
believe must be modernized? What specific roles would each system play 
in deterring a Russian threat to NATO? To the extent that these roles 
are currently played by lower-yield U.S. nuclear weapons such as 
nuclear gravity bombs and nuclear cruise missiles, which could 
potentially be met with advanced conventional systems, such as 
hypersonic weapons and advanced, conventional cruise missiles?
    Admiral Stavridis. [No answer was available at the time of 
printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
                  
    Ms. Bordallo. The Russian deployment last fall of a Borei-class 
submarine carrying long range nuclear capable ballistic missiles to 
Vladivostock, and the potential of a second sub arriving this year 
indicates Russian intentions to increase its presence on and beyond its 
Pacific Coast. In your opinion, what impact would a corresponding 
decrease in U.S. Navy ships, as well as unilateral and joint exercises, 
in the region have on our ability to project power and reassure our 
allies and partners?
    Dr. Hill. The deployment of a Borei-class ballistic missile 
submarine indicates that Russia intends to continue to operate 
ballistic missile submarines from its Pacific coast as well as from the 
Kola Peninsula. This is a long-standing practice of the Russian navy, 
just as the United States operates ballistic missile submarines in both 
the Atlantic and Pacific Oceans.
    The number of U.S. Navy ships as well as the number unilateral 
exercises and, in particular, joint exercises obviously affect the U.S. 
ability to project power in the region as well as to reassure U.S. 
allies and partners in the Western Pacific. But I would consider that a 
separate issue from the question of the Borei-class submarine 
deployment.
    Ms. Bordallo. The Russian deployment last fall of a Borei-class 
submarine carrying long range nuclear capable ballistic missiles to 
Vladivostock, and the potential of a second sub arriving this year 
indicates Russian intentions to increase its presence on and beyond its 
Pacific Coast. In your opinion, what impact would a corresponding 
decrease in U.S. Navy ships, as well as unilateral and joint exercises, 
in the region have on our ability to project power and reassure our 
allies and partners?
    Dr. Farkas. The United States must continue to project power and 
protect freedom of navigation in Asia-Pacific and maintain our nuclear 
triad as part of nuclear deterrence. This means that the Navy must be 
funded ensure the right mix of platforms and capabilities.
    Ms. Bordallo. The Russian deployment last fall of a Borei-class 
submarine carrying long-range nuclear capable ballistic missiles to 
Vladivostock, and the potential of a second sub arriving this year 
indicates Russian intentions to increase its pres-
ence on and beyond its Pacific Coast. In your opinion, what impact 
would a corresponding decrease in U.S. Navy ships, as well as 
unilateral and joint exercises, in the region have on our ability to 
project power and reassure our allies and partners?
    Admiral Stavridis. [No answer was available at the time of 
printing.]
			[all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
